MARCH
           MISCONDUCT IN SCIENTIFIC

                 RESEARCH





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OAI- 8S-Q7 - 00420                         MARCH 1989
                       .... .............     ....... ............ ......
                                           ... ....... .... ..........
                              ........... ...                       .........................
                                                                       ..........
                                                                       .... ....    .......
                                                                                   ...         ...........
                                                                                       ...... .... .... ...................
                                                                                                              ......
                                                                            ......... ...... ...... ... ...... ....... ...    ..................




                                             TABLE OF CONTENTS



EXECUTIVE SUMMARY

INTRODUCTION
    Purpose ......                                                                         .............................. ............... 1


     The Problem of Scientific Misconduct...............................................                                                           1

      Federal Involvement in Scientific Research ...................................... 1

      Federal Action on the Problem of Scientific Misconduct ..................... 2

      Scientific Community Actions on the Problem of Misconduct ............... 3

      Methodology........................ ............           .................. 4

FINDINGS AND RECOMMENDATIONS
    Role of NI H. ......
    Absence of Proced ures................. ....                                        e............... 8"8..... 8
    Nature of Procedures ......................................................all..................... ....... j 0

      Problems with Investigations and Detection ........................................

      Estimate of Occurrence of Cases ...................................,...............................

      Need for Prevention and Ethics .......................................................

AGENCY COMMENTS AND OIG RESPONSE..............................................


APPENDICES
      Appendix A. Telephone Survey Methodology
      Appendix B. Areas Incorporated in Procedures/Policies
      Appendix C. The Emerging Area of Preventive Measures
      Appendix D. References

      Appendix E. Agency Comments
                                EXECUTIVE SUMMARY

PURPOSE

To determe: (1) the extent to which the National Institutes of Health (NIH) and its grantee
institutions have developed and implemented policies and procedures to prevent, detect and
handle scientific misconduct cases; and (2) what selected grtee institutions have learned and
implemented as a result of their cases of impropriety in scientific research.

BACKGROUND

The most commonly accepted definition of " scientific misconduct " involves plagiarsm and
fabrication, falsification , and misrepresentation of data. Isolated cases of such practices sur­
faced from the mid- 1970' s through the early 1980' s. The NIH, the primary funder of biomedi­
cal research, received a growing number of reports of alleged misconduct among its grantees.
At that time, research institutions were not prepared to deal with cases of deliberate deception
because they lacked procedures for handling such allegations. The cases of misconduct which
have recently emerged have greatly sensitized the scientific community to the problems and
complexities which musrbe resolved when misconduct occurs in the scientifc setting.
Severa grtee institutions have now developed procedurs to handle allegations of miscon­
duct.

Congress has perceived the increased volume of reported cases of misconduct as a threat to
the public trst in biomedical researh. In an attempt to address the issue, Congress passed a
section withn the Health Research Extension Act of 1985 (Public Law 99- 158) to deal with
the problem. The law required those applying for NIH funds to submit with their application
an assurance that they have procedures in place for dealng with scientific misconduct. They
also must have an admistrative process to review reports of misconduct and to repon to the
Secretar of the Deparent of Health and Human Services (HHS) investigations which
produce substatial evidence of unscientific practices. The Department has not yet finalized
regulations on scientific misconduct to implement these requirements.

METHODOLOGY

We conducted this inspection in three phases: (1) we held discussions on selected iss ues wi th
HHS officials, scientific societies and associations, and other knowledgeable individuals; (2)
we conducted a telephone survey of a random sample of NIH grantee institutions; and (3) we
visited nine grantee institutions to lear from their experience with scientific misconduct cases.
FINDINGS

       With the Deparent there is no centr locus of responsibility or accountability for
       scientic misconduct.



       The Nl has been slow in fonnalizing policies and procedures for dealing with scien­
       tific misconduct and handles investigations of allegations on an ad hoc basis resulting in
       inconsistencies.

       Only 22 percent of NIH grtee institutions overall have policies and procedures in
       place to deal with cases of scientic misconduct, as required by law. However, 93 per­
       cent of grantee institutions with 100 or more awards do have such policies and proce­
       dures.

       Grantee institutions are awaiting guidance from NIH to develop their policies and proce­
       dures for scientic misconduct, although 53 percent overall say the development of pro­
       cedures is primary their responsibility.

       Scientific misconduct procedures that ar in place are generally not comprehensive and
       are limited.



       VIrally all of the grantee institutions ' procedures include steps for investigating allega­
       tions. However, most do not provide for notifying Nll at the initiation of an investiga­
       tion. Al of the large grtee institutions considered investigations their responsibility,
       although only 54 percent of the small grtee institutions shared this view.

       Grantee institutions stress the complexities of conducting scientific misconduct inves­
       tigations and want flexible procedures. Hal of the grtee institutions with 100 or
       more awards have used outside expenise.

       Grantee institutions say that detecting actual misconduct is problematic, and there is
       heavy reliance on the " whistle blower. " They also say it is not possible to guarantee
       confidentiality and to protect the whistle blower.

       Thir-six percent (17 0(47) of the grtee institutions with procedures reported cases
       of misconduct which required the use of their procedures. Sixteen of the 34 cases (47
       percent) investigated by these 17 grantee institutions were substantiated. Over half of
       these institutions are revising their procedurs.

10.	   A few grtee institutions have developed or ar developing guidelines for preve:1tive
       and ethical scientific practices. Grantee institutions have expressed interest in receiving
       guidance in this emerging ara.
11.	   Grantee institutions say that the principal investigator has a major responsibility for
       fostering scientific integrty and that scientific misconduct would be less likely to occur
       if the pricipal investigator adequately perfonns his/her responsibilities.


RECOMMENDA TIONS

       The Secretar should prov     e for independent oversight, and develop a more fonnalized
       and centralized process to deal with scientific misconduct including the following ele­
       ments: (1) an independent third par to act as a fact gatherer and collect, retain and
       analyze investigative data; (2) an independent scientic review board to assist in analyz­
       ing infonnation concerning scientific misconduct; and (3) an independent decision
       makng authority or ombudsman tye function. This is especially importt given the
       congressional concern regarding the lack of independence of investigative units.

       The Deparent should expedite completion and publication of a final regulation on the
       responsibilties of Public Health Service (PHS) awardee and applicant institutions for
       dealg with and reportng possible misconduct in science, as required by law. This will
       faciltate the development of procedures by grantee institutions.


       The Deparent should require all applicant institutions to submit their scientific mis­
       conduct procedurs on an annual basis to assure compliance with the law. The PHS
       should review the procedures on a sample basis and also in all instances where scientific
       misconduct cases are reported to assure that essential areas ar covered.

       The first line of responsibilty for conducting an inquir and/or investigation into an al­
       legation of misconduct restS with the grantee institution. However, regulations issued
       by the Deparent should require that grtee institutions immediately notify the
       Deparent whenever they detect or receive an allegation of scientific misconduct,
       maintan records of all inquiries and investigations and provide the Deparment with pe­
       riodic status reports. The regulations should specify time fres   for reporting and con­
       ducting inquires and investigations. Although we recognize the grantee institutions are
       concerned about flexibilty, these requirements ar, nevenheless, necessar to assure
       adequate monitoring and oversight by the Deparent.

       The Deparent should keep complete and unifonn records concerning investigations
       underten by the grtee institutions and PHS in order to maintain baseline data on the
       incidence of cases. This infonnation could also be used in refining guidance and direc­
       tion to grantee institutions in conductig future investigations.

       The Deparent should encourage individuals with infonnation about instances of pos­
       sible scientific misconduct to come forWard. Grantee institutions should be infoI1ed of
       the Office of Inspector General (OIG) Hotline, which receives allegations concerning
       frud and abuse in the Deparment s programs.
                                      :.




       The Depament should explore ways to protect the " whistle blower " since detection of
       possible scientific misconduct relies so heavily on individuals willng to make an allega­
       tion. Curntly Federal employees who engage in " whistle blowing " are protected by
       law. Simiar protection should be provided to individuals reponing possible scientific
       misconduct by grtees.

       The Depament should explore alternative methods of detecting possible misconduct.
       Examples of possible methods ar spot audits of scientific data, or special reviews by
       editors of   scientic joumal

       The Depament should develop a table of penalties, such as the model adopted by. the
       Office of Personnel Management, to assur that sanctions are applied consistently and
       faily in cases of scientific misconduct.


10.	   The PHS should assume a leadership role and provide guidance to the grantee institu­
       tions in matters related to scientific misconduct.

              The PHS should sponsor a consensus conference to develop model guidelines
              for use by grantees in addressing all relevant areas of scientific misconduct.

              The PHS should continue its efforts in the area of prevention, such as the
              contrct with the InstitUte of Medicine to develop scientific standards for the
              conduct of responsible science. The PHS should develop model preventive
              guidelies and require        that institUtions adopt these measures as a condition of
              funding.


AGENCY COMMENTS

The Public Health Service (PHS) indicated that the OIa draft report on Misconduct in Scien­
rific Researh was " a useful discussion of some imponat issues related to allegations of mis­
conduct in PHS extramur progrs. " The PHS provided genera and specific comments on
the drt of this report which ar included in appendix E. In response to these comments, we
made revisions where appropriate in the final report.
                                      INTRODUCTION


PURPOSE

To determe: (1) the extent to which the National Institutes of Health (NIH) and its grantee in­
stitutions have developed and implemented policies and procedures to prevent, detect and
handle scientific misconduct cases; and (2) what selected grantee institutions have learned and
implemented as a result of their scientic misconduct cases.

THE PROBLEM OF SCIENTIFIC MISCONDUCT

Although the precise definition of scientific misconduct is at issue, it is generally understood
to involve deceit rather than error. The Public Health Service (PHS) policy defines miscon­
duct as " serious deviation, such as fabrication, falsification, or plagiarsm, from accepted prac­
tices in caring out research or in reponing the results of research. . . " Scientific misconducr

can have serious consequences and weakens the knowledge base upon which future experi­
ments are perfonned. It divens research funds from the work of ethical scientists and under­
mines public confidence in scientific research. Most alaningly, if it goes undetected,
scientic misconduct can lead    to dangerous changes in clinical tratment   and medical prac­
tices.

Traditionaly, the scientific community has relied upon two defenses against misconduct: (1)
the integrty of its scientists and (2) the scientific principle which gives credence only to
results which can be replicated by other researchers. These defenses have not proved impreg­
nable. Like al fields, scientic research has attrcted a very small miority of unethical in­
dividuals and replication is not always an effective defense.

Despite the intensifyig public focus on the  reponed scientific misconduct cases during the
1980' s, no consensus has emerged on the proper way to deal with the problem. Some of the is­
sues in dispute ar the precise definition and prevalence of scientific misconduct, the most ef­
fective way to detect and prevent misconduct, the practices to promote responsible conduct of
research , and the proper proedures for handling allegations of misconduct.

FEDERAL INVOLVEMENT IN SCIENTIFIC RESEARCH

The NIH , an agency of the PHS in the Deparment of Health and Human Services (HHS), is
charged with fostering the public health through research and research training conducted or
funded by its 16 bureaus, institutes and divisions. The NIH is the largest funder of biomedical
researh in the world. In Fiscal Year 1986, the NIH awared 23, 445 grants totalling over $3.
billon to 1, 303 institutions. Approximately one-thir of this money went to indirect costs for
housing the grt, includig genera admnistrtion, plant and equipment, quality control , and
costs for dealng with scientific misconduct. In Fiscal Year 1987, over $4.4 bilion in research
grants was awarded.
Each NIH component uses some varant of the same       grt   application and monitoring process.
This process strsses the scientific merit of the proposals and accounting for the expendiwre
of Federa funds. Grat applications undergo an external scientific peer review that judges
scientic merit and technical qualities, and a subsequent review by institute advisory councils
that addresses whether the proposed research wil benefit public health. While receiving
Federa funds, grantees are requird to provide progress repons. In addition, Nll grants
management and progr offcials review the programatic progrss and business manage­
ment of grants.

Issues of research integrty and quality control are not explicitly addressed during the grant ap­
proval and management process. They are considered the responsibility of the grantee institu­
tion and caned out by the principal investigator. The Nff becomes involved only when a
grantee institUtion has notified NIH that one of its researchers has committed an act of miscon­
duct, or when NIH believes that a grantee institution has failed to fully investigate an allega­
tion of misconduct. Since Januar of 1982, Nll has received 102 allegations of scientific
misconduct and the Deparent has issued a sanction or taken formal cocrective action in 21
cases. The sanctions may include debanents from receiving future funding for a specified
period of tie.

FEDERAL ACTION ON THE PROBLEM OF SCIENTIFIC MISCONDUCT

In 1981 the Subcommttee on Investigations and Oversight of the House Committee on
Science and Technology heard testiony from scientists and philosophers interested in the
legal, ethical , and scientific consequences of scientific misconduct. The hearng demonstrated
that neither grtee institUtions nor Nll had procedures for dealing with allegations of miscon­
duct in federaly funded research. The subcommttee found that there had been instances of
misconduct but that NI handled each of them in an ad hoc, case- by-case basis.

In 1985 Congrss passed " The Health Researh Extension Act " (the Act). The conference
report accompanying the final legislation refecred to the Nll scientific misconduct procedures
in place at that tie as " informal" and " ad hoc. " It noted that Nff, even in cases of admitted
wrongdoing, took over a year to complete reviews and impose sanctions. The report also ar­
gued that sanctions should include the recovery of misspent Federal research dollars. The
major provisions of the Act require that: (1) the Director of Nff establish procedures to en­
sure prompt response to information regaring scientific fraud, faciltate the receipt of such in­
formation , and expedite appropriate action with respect to misconduct; (2) the Secretar of
HHS establish regulations requirng those applying for NIH funds to submit with their applica­
tions an assurance that they have procedurs for dealing with scientific misconduct; and (3) ap­
plicants have an admnistrative process to review reports of misconduct and report to the
Secretar investigations which uncover substatial evidence of unscientific practices.

Subsequently, representatives from the PHS agencies developed a set of interim guidelines
 The Policies and Procedures for Dealng with Possible Misconduct in Science, II which were
approved in 1986. . These interim guidelines set fort awardee obligations as follows: (1) as­
sume primar responsibilty for preventing, detecting, and dealing with misconduct; (2)
 develop policies and procedures for dealing with possible scientific misconduct; (3) inform
 PHS of the initiation of any fonnal investigation of possible maleasance; and (4) maintain a
 fact- finding system, which generaly consists of an " inquiry " to detennine whether an allega­
 tion has substance enough to   wart    an investigation, and an " investigation " which is a for­
 mal evaluation of all relevant facts to detennine if misconduct has occurred. However, until
 PHS publishes final regulations, these requirements are not binding on the grantee institution.

 Under these guidelines Nll has e following options: (1) accept the grantee institution s in­
 vestigation report, if it believes the report is factual , fair to all concerned, and addresses all
 misconduct issues; (2) conduct its own review if it has reason to believe that the institution
 report is incomplete or unreliable; or (3) begin an investigation if it feels that the grantee in­
 stitution is not satisfactorily pursuing an allegation of misconduct.

 The NIB usually conducts its investigations by appointing a panel of scientific peers to review
 the case. Panel members ar primarly drawn from outside of Nll. Usually they have exper­
 tise in the subject matter of the research being questioned and should not have real or per­
 ceived conflict of interest with the accused.

 In Apri 1988, two congressional committees held hearngs on scientific misconduct. Both of
  these commttees were concerned over allegations that significantly more cases of misconduct
  exist than ar reported and investigated. Durig the heargs committee members questioned
  the capabilty of grtee institutions to handle allegations of misconduct and to conduct inves­
  tigations of alleged improprieties. Members criticized the Deparent about the lack of
  resources, lack of tiely resolution of cases, treatment of whistle blowers and the lack of ap­
  preciation of conflct of interest with respect to selection of panels of scientifc peers. A hear­
. ing was also held in September of 1988 to furer explore these issues as well as to inquire
  into potential conflct of interest cases in academic research. The committee members indi­
  cated that they intend to introduce significant legislation unless the Deparent corrects the
 perceived deficiencies.

 In September 1988, prior to issuing a final regulation implementing the Health Research Ex­
 tension Act, the PHS published a notice of proposed rulemakng (NPRM) on the respon­
 sIbilties of PHS awardee and applicant institutions for dealing with and reporting possible
 misconduct in science. Simultaneously, PHS published an advanced notice of proposed
 rulemakng (ANPRM) to aid in the development of futue regulations protecting against mis­
 conduct in research. Also in September 1988, the PHS published two Grants Admnistration
 Manual Issuances, providing the basis of deparental procedures for dealing with instances
 of alleged misconduct in science.

 SCIENTIFIC COMMUNITY ACTIONS ON THE PROBLEM OF SCIENTIFIC MIS-
 CONiJUCT

 In the early 1980' s two organizations, the American Association of Universities (AAU) and
 the Association of American Medical Colleges (AAMC), published guidelines for maintaining
 integrty in scientific research. While in genera these guidelines do not offer specific proce-
                                  . ,




dures, they do addrss the primar areas that institutions need to consider in developing proce­
dures. Curntly, the AAU and the AAMC are collecting procedures from varous institutions
to establish a base of informtion on the tyes of procedures in use throughout the countr.
Recently, a consortum of educational organizations under the direction of the AAU has
developed a framework , or model guidelies, for institutional policies and procedures to deal
with scientific misconduct.

In the fal of1987 the American Association for the Advancement of Science (AAAS) and the
American Bar Association (ABA) held a National Conference of Lawyers and Scientists. The
parcipants, from universities involved in allegations of misconduct, NIH, and the National
Science Foundation, exchanged problems, experiences, and information. Subsequent con­
ferences wil addrss policies and procedures for handling allegations and some of the broader
issues involved in scientific misconduct.

Little information exists on the extent to which grantees have policies and procedures, since
very few studies have been done in this area. A survey conducted from 1982 to 1984 found
that only 23 percent of academic institutions and hospitas had wrtten rules for dealing with
allegations of fraud.



METHODOLOGY

This study was conducted in thre phases. First, we held discussions on selected issues with
HHS officials, representatives of scientific societies and associations, grantee institutions, and
other knowledgeable individuals. Our contacts included the Society for Research Ad­
ministrators, Institute of Medicine, Association of State Colleges and Universities, American
Association of Medical Colleges, and the American Association for the Advancement of Scien­
ces. Addtionaly, we reviewed pertent literature, including journal anicles, books, legisla­
tion, regulations and Government manuals and guidelines.

In the second phase we surveyed a random sample of Fiscal Year 1986 NIH grantee institu­
tions by telephone to determine the extent to which NIB grantee institutions have established
policies and procedures relating to scientic misconduct. We also requested each grantee in­
stitution to send us its scientific misconduct policies and procedures.

The telephone survey was completed through interviews with representatives of the sampled
universities or institutions. The initial contacts with the varous institutions nationwide re­
quested access to the individual knowledgeable about admnistration of scientific misconduct
procedurs for NIB research grants. Telephone interviews at the institutions were held with
deans, assocate deans and admnistrators of researh and/or grants progrs; vice chancel­
lors, associate and vice provosts; professors and principal investigators; and corporate offcers.

The sample was divided into three strta: 30 grantee institutions with 100 or more research
awards which represented 86 percent of all award money in the sample; 31 grantee institutions
with 10 to 99 research awards representing 11 percent of the funding; and 28 grtee institu­
tions with less than 10 research awards which made up less than 2 percent of the funding.
Those with more than 100 research awards were generaly large universities with considerable
Nl fundig in their biomedical research deparent or medical school. State universities
teaching hospitals, and research foundations comprised most of the institutions receiving 10
through 99 research awards. The institUtions with less than 10 research awards consisted
mainly of small corporations, hospitas, and regional universities. Geogrphically, over one-
third of the institUtions in all thee strata were located in the Northeast and the West. For a full
discussion of the surey   methodology,   see appendix A.

The third phase of the stUdy consisted of site visits to nine grtee institutions which had ex­
perience with scientic misconduct cases. These grantee institutions were not necessarly a
par of the random sample for the telephone survey. Discussions with individuals at the gran­
tee institUtion included the following topics: (1) definition of misconduct, (2) development
and use of procedurs, (3) prevention and detection , (4) role of the principal investigator, and
(5) lessons leared. Discussions were held with provosts, deans, principal investigators, legal
counsel and administrators. At some institutions, we also met with individuals against whom
allegations of misconduct had been made, as well as some whistle blowers.
                      FINDINGS AND RECOMMENDATIONS

ROLE OF NIH

Within the Departent there is no central locus of responsibility or accountability for    scien­
tific misconduct.

Severa Nl components and PHS agencies ar        curently responsiblefor handling allegations
and investigations of misconduct or other improprieties. Consequently, the responsibilties are
diffuse. The designated units within Deparent ar as follows:

      The Office for Extrural Research in NIB has been delegated the responsibility to
      develop and assess policies and procedures for preventing, detecting, reportng, and
      handling instances of alleged scientific misconduct The diector of this office is the
      PHS misconduct policy officer. Although this office oversees and coordinates PHS
      activities related to misconduct, only two full- time professionals, who had additional
      responsibilties, were assigned to this area at the time our study was conducted. Since
      that time two professionals and one secretar have been added to the NIB offce that
      handles alegations of misconduct in science (See Agency Comments).

      The Offce for Protection from Research Risks in NIB has the responsibility for human
      subject protection and animal welfare. This office investigates alleged or apparent
      violations of Federal regulations governing the protection of human subjects or PHS
      anmal welfare policy in cases involving PHS funded research. These violations are
      included in the PHS definition of scientific misconduct.

      The Division of Management Survey and Review in NIB manages the PHS ALERT
      system which collects, controls and disseminates infonnation about institutions or
      individuals under investigation for possible scientific misconduct or sanctioned for
      misconduct. The PHS offcials use this infonnation to make infonned decisions
      regarding funding, although such infonnation does not automatically result in the
      withholding of funds. This unit also reviews allegations of grantee fiscal improprieties
      and has audit responsi)Jilties over grantees.

      The Offce of Inspector General (OIG) also has audit responsibilities for grntees, as
      well as investigative responsibilty for those scientific misconduct cases with potential
      crminal violations. The Inspector General Amendments Act of 1978, P. L. 95- 452 , as
      amended, provides that the OIG have the responsibilty to supervise, coordinate, and
      provide policy diection for auditing and investigative activities relating to programs
      and operations of the Deparment; and to prevent and detect fraud and abuse in its
      progrs and operations. However, the Secretar has not delegated the overall
      responsibilty for scientific misconduct to the OlG.
Each PHS agency (including the Nll; the Alcohol , Drug Abuse and Mental Health Ad­
ministration; the Food and Drug Administrtion; the Centers for Disease Control and the
Health and Resources Admnistration) also has a misconduct policy offcer who, among other
duties, provides leadership to ensure appropriate agency implementation policies and proce­
dures for the fai and prompt handling of instances of alleged or apparent misconduct.


Allegations of scientic misconduct are cUIntly received by the varous offces discussed
above, as well as the grts projec; officers in the many institutes and other components in
each of the agencies. Additionally; some allegations are received by the OrG hotline. (The
PHS has recently developed a reorganization proposal to deal with allegations of scientific
misconduct, which has not yet been approved. This proposal was described in their commen
to thedrt report, dated Januar 30, 1989.

As noted earlier, Congrss has held hearngs on the issue of scientic     misconduct and the
Dep3.ent's abilty to deal with allegations and investigations of scientific misconduct. A
major focus of those heargs was the diffusion of responsibilty for dealing with scientific
misconduct as well as the inherent conflict of interest by the placement of this activity within
the funding agencies. Some members of Congrss have called for an independent and objec­
tive screening and review of allegations of scientific misconduct:

The NIB has been slow in formalizing policies and procedures for dealing with scientific
misconduct and handles investigations of allegations on an ad hoc basis resulting in incon­
sistencies.

Until recently, the NU relied upon interim guidelines, entitled, " Policies and Procedures for
Dealing with Possible Misconduct in Science, " issued in 1986, for determning how PHS
handles cases of scientific misconduct. In accordce with the requirements of the Health Re­
search Extension Act of 1985, the gudelines indicated that severa steps would be taken
promptly to formalize this proess, including: (1) incorporatig sections on scientic miscon­
duct into standard gudace documents such as the " Grats Admnistrtion Manual; " (2)
publishing a notice of proposed rulemakng to implement grtee responsibilities as required
by law; and (3) establishing a PHS committee on scientific misconduct to exchange informa­
tion about investigations and discuss relevant policy proposals.

In September 1988, the PHS published two Grants Administration Manual Issuances, which
put into place fully binding depanmental policies on scientific misconduct. Additionally, a
notice of proposed rulemakng (NPRM) on the responsibilities of PHS awardee and applicant
institutions for dealing with and reportng possible misconduct in science was published in the
Federa Register. A final rule is expected to be published by the middle of this year. Also, the
first meeting of the PHS committee on scientific misconduct was held in December 1987.

The Grats Administrtion Manual      Issuance on misconduct in science closely resembles the
interim guidelines and provides genera principles rather than an explicit procedure with
specific standads and criteria. Although the publication of the Grats Administrtion Manual
Issuance fonnized the process, the manual issuance has the same deficiencies as the interim
guidelines. Therefore, the same weakesses identified by Nll staff with the interim
guidelines, described below, wil contiue to persist.

Accordig to key Nll staf, Nll handles investigations of scientific misconduct on an ad hoc
basis. They charcteried the process as infonnal and stated that they did not always follow
the interi guidelines, because the guidelines were broad and offered few specifcs. Inconsis­
tencies occurd because the interim guidelines did not include stadards for prompt and com­
plete reviews, i.e. tie frames for Gonducting an investigation are not specified. Further, the
guidelines did not offer explicit crteria for detennining, among other things: (1) when PHS
should initiate its own investigation or (2) how to select scientific review panels, which review
grantee institution s repons of investigations and sometimes conductNIH investigations.

Some grantee institutions said that Nll is inconsistent and should examne its own proce­
dures. Others said that Nll' s handling of investigations is greatly influenced by the media,
and that this results in inconsistencies. Stil others commented that NIB' s investigative
process is disorganized and slow, and that Nll' s procedures could be more explicit.

Funher, criteria to detenne appropriate sanctions or debarent periods have not been estab­
lished. After an alegation has been substantiated, sanctions are imposed on a case- by-case
basis. Some grtee institUtions commented that sanctions, debarent periods and especially
the decision to recoup funds appear to be inconsistent. Additionally, the Conference RepoI1
for the Health Research Extension Act of 1985 states that the Nll procedures should include a
mechanism for the recovery of Federal funds. Since 1982 , PHS has only recovered a total of
$382, 000 from four institUtions.

Recommendation: The Secretary should provide for independent oversight, and develop a
more formalized and centralized process to deal with scientifc misconduct including the fol­
lowing elements:    an independent third party to act as a fact gatherer and collect, retain
                              (1)

and analyze investigative data;   an independent scientifc review board to assist in analyz­
                                                    (2)

ing information concerning scientific misconduct; and                    (3)   an independent decision making
authority or ombudman type junction. This is especially important given the congressional
concern regarding the lack of independence of investigative units.

Recommendation: The Department should develop a table of penalties, such as the model
adopted by the Offce of Personnel Management, to assure that the sanctions are applied con­
sistently and fairly in cases of scientifc misconduct.


ABSENCE OF PROCEDURES

Only     22   percent of NIB grantee institutions overall have policies- and procedures in place to
deal with cases of scientific misconduct, as required by law. However,                      93   percent of grantee
institutions with 100 or more awards do have such policies and procedures.
The Nll   has delegated the   primar responsibilty                             addressing
                                                     for preventing, detecting and
scientic misconduct to its grtee institutions, as required by the Health Research Extension
Act of 1985. All applicants wil be required to make assurces that they have procedures in
place to deal with scientic misconduct, as required by law, when regulations are published.

Only 22 percent of the Nll grtees overal have procedures in place to deal with cases of
scientic misconduct. In the group of grtee institutions with 100 or more awards and 86
percent of the fundig, 93 percen (28 of 30) have procedurs. This stil means that two in­
stitutions with over 100 awards from Nll have not yet developed prQcedures. In addition , the
majority of Nll grantee institutions are small , having less than 10 awards. In this group only
11 percent (3 of 28) had developed procedures.

Grantee institutions who have had experience with cases of misconduct stress the imponance
of having policies and procedures in place prior to the occurrence of an allegation. Most of
the nine institutions visited had developed procedures in reaction to cases of misconduct at
other institutions where no procedures existed. As a consequence, when cases occurred at
their institution, they were prepared to deal with them. These institutions also pointed out that
having wrtten procedures helps to prevent the appearance of a cover-up or of persecuting an
individual.

A few grtee institutions in our telephone survey who had developed procedures remarked
that they had not done so until a substantial charge of misconduct had been alleged, at which
time painstakg effort was requird on the par of faculty members and committees to
develop misconduct procedures. This furter supports the need for wrtten procedures      before
cases occur.



Grantee institutions are awaiting guidance from NIH to develop their procedures, although
53 percent overall say the development of procedures is primarily their responsibilty.

When asked who should have primar responsibility for developing procedures, 53 percent
said the grtee institution should have the primar responsibilty. However, a number of

grantee institutions indicated that they are looking to the NIB for more guidance on develop­
ing misconduct procedures and on deciding what should be included in the procedures.
Severa of the grtee institutions said that the NIB and the institutions should work together
in developing a misconduct policy. Also, some institutions commented that because of the
heterogeneity of the grtee institutions, the NIB should review applicants ' procedures to
detennne that the appropriate issues were addrssed.

Although   Nlhas developed interi guidelines in resp9nse to the Act, final regulations im­
plementing grtee institution responsibilties have not been published. Some say they are
waitig for final regulations to be published before developing procedures. Of the grntees
with procedurs, 23 of 47 had developed their procedures prior to the Act and 20 have
developed procedures since then - - after NIB' s interim guidelines were issued. Four grntees
did not know when their procedures had been developed. Grantee institutions have delayed
action in developing procedures, waiting for final rules.
                                               ' "




Some of the small grantee institutions indicated that they were unaware that misconduct proce­
dures wil need to be in place in order to receive NIB funding. A few of the small institutions
were unconcerned about misconduct, stating that this would not happen at their institution be­
cause of their small size. Other small grantee institutions are panicularly concerned regarding
the development of procedures and future requirements. Only 44 percent of the grantee in­
stitutions with less than 10 awards, that do not have procedures, said they intend to develop
procedurs.

Recommendation: The Departent should require all applicant institUtions to submit their
scientific misconduct procedures on an annual basis to assure compliance with the law. The
PHS should review the procedures on a sample basis and also in all instances where scientifc
misconduct cases are reported to assure that essential areas are covered.

Recommendation: The Department should expedite completion and publication of a final
regulation on the responsibilties of PHS awardee and applicant institutions for dealing with
and reporting possible misconduct in science, as required by law. This wilfaciUtate the
development of procedures by grantee institUtions.

NATURE OF PROCEDURES

Scientific misconduct procedures that are in place are generally not comprehensive and are
limited.

We compared the grtee institutions ' procedures in place to the recommendations of the NIH
interi guidelines and  other areas identified as imponant by the Association of American
Medical College s " The Maintenance of High Ethical Standards in the Conduct of Research"
and the Association of American Universities Repon of the Association of American Univer­
sities Commttee on the Integrty of Researh. " We asked if the procedurs covered the fol­
lowing areas: inquires and investigations of allegations of misconduct; specified time frames
for conducting inquires and investigations; reponing to the NIB; protection of confidentiali ty
for the accused and the individual makg the accusation; due process and appeals; retention
storage, and ownership of data; validation of research results; retraction of published arcles
shown to be fraudulent; and responsibilty of coauthors.

Based on this analysis, few grntee institutions covered all the elements noted, and less than
half include provisions for the retention , storage and ownership of data; validation of research
results; retraction of arcles; or responsibilty of coauthors. See appendix B for areas incor­
porated and percentages of grantee institutions whose procedures included those elements.

Well over thre- founhs     of the grntee institutions with procedures have provisions for con­
fidentiality for the whistle blower and the accused. In many procedures there was -a general
refert?nce to " the protection of the reputation of those who, in good faith , report misconduct

or an admonition that confidentiality must be maintained at all times during both levels of in­
quir. It should be noted that grntee institutions expressed equal concern for the prorection
of the accused. Although many institutions have measures to prOtect confidentiality, all agree
       " "




that confidentiality cannot be guarteed. Also, three- founhs of the grantee institutions in­
clude provisions for due process and appeals and almost all institutions provide for internal
sanctions in cases of wrongdoing, includig penalties for those who make false accusations.

Procedures in place at the grtee institutions we visited , also were vared and somewhat
limited. However, half the institutions had developed separate policy statements addressing
most of the elements listed above. Most commented that they prefer a flexible policy, since
their combined thinkng, no two 
   ases ar ale. Therefore, grntee institutions claim a
frework for a varety of cases is. necessar.
Virtually all of the grantee institutions ' procedures included steps for investigating allega­
tions. However, most do not provide for notifying NIH at the initition of an investigation.
All of the large grantee institutions considered investigations their responsibility, although
only         54   percent of the small institutions shared this view.

Almost all (99%) of the grantees ' procedures included steps for investigating allegations. All
of the large grantee institutions considered such investigations their responsibility. However
only 54 percent of the small institutions shared this view, and most of these institutions would
suppott a more active NIH role in investigating allegations. Somt? of the grntee institutions
sureyed, felt that small institutions should not handle their own cases, and a few recom­
mended that other entities, such as arbitrtion panels, address serious cases.

Procedures established by most of the grtee institutions included two levels of response to
allegations: an inquir and a fonnal investigation. Generaly, the deparent in which the al­
leged misconduct occurd handles the fit step by tring to detenne if there is substance to
the charge. The number of parcipants              at this point is smal in order to ensure confidentiality
and to protect the accused and the accuser. Most of the misconduct procedures designated a
second level of review which was identified as a fonnal investigation.

Procedures vared on whether or not they reponed to NIH after the first level of inquiry. Over
the- founs of the large grtee institutions, and approximately half of the institutions over­
all, do not repon to the fundig agency after the fist level of inquir, which is set fonh in cur­
rent PHS guidelines. Most grtee institutions felt that NIB should not be infonned until
misconduct was substantiated.

Most of the procedures reviewed did. not provide specified time frames for conducting an in­
quir or an investigation, although procedures referrd to pursuing investigations " expeditious­
ly, rapidly, " or " as soon as possible. " If time frames were given, the initial allegation was
usually reponed, reviewed and decided upon within 10 work days. The investigation phase
was someties given a time              fre
                                     of 120 days. However, a representative of a large institu­
tion stated that time         fres
                              were inappropriate: " in complicated cases the only way to go
about it is a dogged, time-consuming effon. " Many grantee institutions noted that the com­
plexity of scientic misconduct cases, and the amount of resources (staf, time and money) re­
quird to investigate such cases made it diffcult to establish time frames.
Recommendation: The PHS should sponsor a consensus conference to develop model
guidelines for use by grantee institutions in addressing all relevant areas of scientifc miscon­
duct.

Recommendation: The first line of responsibilty for conducting an inquiry and/or investiga­
tion into an allegation of misconduct rests with the grantee institution. However, regulations
issued by the Department should require that grantee institutions immediately notify the
Department whenever they detect or receive an allegation of scientifc misconduct, maintain
records of all inquiries and investigations and provide the Department with periodic status
reports. The regulations should specif time frames for reporting and conducting inquiries
and investigations. Although we recognize the grantee investigations are concerned about
flexibilty, these requirements are, nevertheless, necessary to assure adequate monitoring and
oversight by the Department.


PROBLEMS WITH INVESTIGATIONS AND DETECTION

Grantee institutions stress the complexities of conducting scientific misconduct investiga­
tions and want flexible jJrocedures. Half of the grantee institutions with 100 or more
awards have used outside expertse.

Grantee institutions expressed the need for flexible procedures to encompass the complexities
and unqueness of each individual case. We were told that initialy after an allegation is
raised, a grantee institution must decide who should provide the substantiation , and what and
how much substantiation is required to initiate a fonnal investigation. This vares from case
to case.

When the fonnal investigation is initiated, if there are enough scientists with appropriate ex­
pertse and without conflct of interest available within the institution, the institution wil con­
duct its own internal investigation. The grtee institution may request assistance, if
necessar, from others within the institution with scientific expertse, such as nurses and tech­
nicians. However, some grantee institutions may need to elicit expert from outside the institu­
tion to avoid conflct of interest or to obtan the necessar expertse in a very specialized area.
Half of the grantee institutions with 100 or more awards said that outside expenise was used
when investigating cases. However, all the institutions emphasized that only scientists were
able to conduct the investigations.

We were told that an investigation consumes an extrordinar amount of resources including
time, money and labor. Investigators must search for raw data, review the data, review medi­
cal records and other documentation, interview knowledgealJle pares and must duplicate ex­
perients. Sometimes, the investigation includes reviews of earlier publications as well.
These may go back severa year in time. Additional time may be spent seeking retrctions of
fraudulent arcles.

                                   ..




If the accused leaves the institution before or during the investigation , this may complicate the
case even furher. However, 93 percent of the grantee institutions indicated they would con­
tinue to pursue an allegation of misconduct if the accused left the institution.

Grantee institutions say that detecting actual misconduct is problematic , and there is heavy
reliance on the " whistle blower. " They also say it is not possible to guarantee confiden­
tiality and to protect the whistle blower.

Grantee institutions say that detection of scientic misconduct is dificult and they must rely
on the " whistle blower. " Two- thirds of the grtee institutions said that pricipal investigators
would report peers or subordiates engaged in misconduct, although some noted that reponing
might depend on the severity of the situation or the relationship of the pares involved. Some
grantee institutions felt that the pricipal investigator would resolve the problem in the
laboratory settng if at all possible and only notify the deparent head if the dispute could not
be settled.

However, some grantee institutions stated that young researchers are afraid to " blow the
whistle," not wanting to jeopardize their careers, and that it is parcularly difficult for
graduate students to report a superior. Although many institutions have measures to protect
the whistle blower, al agree that confidentiality cannot be guaranteed. A few grntee institu­
tions suggested that an ombudsman be designated to receive allegations.

Grantee institutions expressed concern regarding their heavy reliance on " whistle blowers "   to

detect misconduct. Even so, they did not consider other methods, such as scientific data
audits by outside reviewers, to be cost-efficient or effective.

Grantee institutions noted that detection may be one of the most vexing issues. Most indi­
cated that the past OCCUInces of misconduct could take place agai and that anyone who is
detennned to commt scientific misconduct wil initially get away with it However, ultimate­
ly the grtee institutions believe it would be detected.

We leared that in cases of substantiated misconduct, astute reviewers detected the misconduct
due to statistical naivete and data that was " too clean. " In a few cases, misconduct was
detected through replication of . the experiment.

Recommendation: The Department should explore ways to protect the " whistle blower
since detection of possible scientific misconduct relies so heavily on individuals willng to
make an allegation. Currently Federal employees who engage in " whistle blowing " are
protected by law. Similar protection should be provided to individuals reporting possible
scientific misconduct by grantees.

Recommendation: The Department should exlore alternative methods of detecting possible
misconduct. Examples of possible methods are spot audits of scientific data, or special
reviews by editors of scientific journals.
Recommendation: The Department should encourage individuals with information about in­
stances of possible scientific misconduct to come forward. Grantee institutions should be in­
formed of the OIG Hotline, which receives allegations concerning fraud and abuse in the
Departent s programs.

ESTIMATE OF THE OCCURRENCE OF CASES

Thirt-six percent            of the grantee institutions with procedures reported cases of
                               (17   of   47).

misconduct which required the use of their procedures. Sixteen of the 34 cases   (47 percent)
investigated by these 17 grantee institutions were substantiated. Over half of these grantee
institutions are revising their procedures.

Even though detection is problematic, 36 percent (17 of 47) of the grntee institutions with
procedurs have had cases of misconduct which required the use of these procedures. These
17 grtee institutions reported a total of 34 cases, or an average of 2 cases per institution
which were investigated under their procedures. Over half of these grtee institutions are
revising their procedurs to provide for more comprehensive, precise and clear direction.
Some of the grantee institutions visited ar makng revisions based on their experiences in ad­
dressing actual cases of misconduct.

Curntly there is no cumulative infonnation concerning the number of cases of alleged scien­
tific misconduct that have been investigated by                         Nl
                                                    or the grtee institutions. Based on the
number of cases reported by the grtee institutions in our sample, we estimate that 95 cases
(47 substatiated and 48 unsubstatiated) have been addrssed by NIB grntees. This figure
is simiar to the number of cases reported to NIB since 1982. According to NIH, 102 cases
have been investigated by the grtee institutions and reponed to the agency during that time
period.

We cannot gauge the extent of scientific misconduct accurtely. Our estimate does not repre­
sent an annual incidence of cases, but rather a cumulative occurrnce of cases reported, since
the data reponed was for inconsistent time periods. Also, it should be noted that some grantee
institutions were reluctant or hesitant to repon this infonnation and a few institutions did nOt
know.

The estimate of 95 cases does not represent an estimate of the actual        prevalence   of scientific
misconduct. In fact, the grtee institutions were about evenly split on whether or not more
misconduct occurs than is reported.

Recommendation: The Department should keep complete and uniform records concerning in­
vestigations undertaken by the grantee institutions in order to maintain baseline data on the
incidence of cases. This informtion could also be used in refining guidance and direction to
grantee institutions in conducting future investigations.
NEED FOR PREVENTION AND ETHICS


Afew grantee institutions have developed or are developing guidelines for preventing scien­
tific misconduct. Grantee institutions have expressed interest in receiving guidance in this
emerging area.

Of the grantee institutions sureyed,            measures intended to prevent scientific
                                            21 percent have
misconduct. The most common examples include orientation programs or semiars focusing
on ethcs and misconduct issues (usually aimed at new researchers) and traiing                  programs for
pricipal investigators.

In general, while grantee institutions stressed the need to raise the consciousness of facul
and students about prevention programs, they spoke in tenns of guidelines for scientific prac­
tices and ethics rather than preventive measures. Most grantee institutions do not believe that
misconduct can be prevented. Rather, they believe that emphasizing responsible scientific
practices wil   deter sloppy science      which can lead to misconduct.

Severa grtee institutions, moreover, alluded to the resistance of faculty to deal with prac­
tices they believed were aleady a pan of research activity, to handle additional paperwork,
and to cope with a " police state " mentality. However, most commented that if the scientific
community does not tae some action, it wil be imposed from the outside.

Only a few grtee institutions have developed or ar developing actual guidelines for scien­
tifc practices to ensur the quality and integrty of researh , although this ara is receiving in­
creased attention. (See, for example, " Fraud in Biomedical Research: A Time for
Congressional Restrnt,                                    June 2, 1988, which commends
                            New England Journal of Medicine,

Harard Medical School for developing preventive guidelines but calls for even more strn­
gent measures such as requirg the adoption of these stadads. Appendix C contains the
journal editorial and the Harard Medical School " Guidelines for Investigators in Scientific
Researh. " ) Some grantee institutions have expressed interest in guidance from NIH in this
emergig ara. 

The tyes of provisions we found in the preventive guidelines developed by a few grantee in­
stitutions were quite simiar to those developed by Harard Medical School. These provisions
include: (1) closer supervision of research trainees; (2) more careful gathering and storage of
primar data; (3) validation of research results; (4) explicit criteria for authorship of a scien­
tific paper; and (5) an emphasis on quality rather than quantity of publications.

Grantee institutions say that the prinCipal investigator has a major responsibility for foster­
ing scientific integrity and that scientific misconduct would be less likely to occur if the prin­
cipal investigator adequately performs his/her responsibilities.

Severa grtee institutions gratly          stressed       the responsibilty of the principal investigator for
teaching integrty in research. In addition to the many competing roles of a principal inves­
tigator such as identifying researh funds, managing grants, overseeing multi-site projects and
trating patients, grantee  institutions said that the principal investigator should continually
monitor and be constatly involved in the research effort. Grantee institutions commented
that if the pricipal investigator was adequately perfonning his/her duties, misconduct would
be less likely to occur.

The grantee institutions described the following practices that a pricipal investigator should
follow to foster scientic integrty in the laboratory includig: serving as a mentor or desig­
nating among the senior researchers a mentor for the inexperienced researcher to work with on
a daiy basis; maintaning open coinunication; reviewing and signing off on all wrtten
material that leaves the lab; reviewing all raw data; screening all research applicants carefully;
developing a system of data retention and storage; and conducting fonnal staff assessments for
junior researchers.



The pricipal  investigators who had dealt with a case of scientific misconduct in their
laboratory told us they had experienced a change of attitude. Pror to the case, they had been
more trsting, but afterwards, they had become much more cautious and no longer assumed
the trstWonhiness of another scientist Also, their approach to supervision in the laboratOry
became more strctued and disciplined.


Recommendation:      The PHS should continue its efforts in the area of prevention, such as the
contract with the InstitUte of Medicine to develop scientific standards for the conduct of
responsible science. The PHS should develop model preventive guidelines and require that
grantee institUtions adpt these measures as a condition of funding. The role of the principal
investigator should be adressed in the preventive measures.
                   AGENCY COMMENTS AND OIG RESPONSE


The Public Health Service (PHS) indicated that the oro draft report on Misconduct in Scien­
tic Research was " a useful discussion of some important issues related to allegations of mis­
conduct in PHS extramur progrs. " The PHS provided general and specific comments on
the draf of this report which are included in appendi E. In response to these comments, we
made revisions where appropriate in the final report. The comments PHS made with regard to
the oro recommendations ar discussed below.


      DIG Recommendation


      The Secretary should provide for independent oversight, and develop a more formalized
      and centralized process to deal with scientifc misconduct including the following ele­
      ments:       (1)   an independent third party to act as a fact gatherer and collect, retain and
      analyze investigative data;       (2) an independent scientifc review board to assist in anaLyz­
      ing informtion   concerning scientific misconduct; and           (3)   an independent decision
      making authority or ombudman type function.              This   is especially important given the
      congressional concern regarding the lack of independence of investigative units.

PHS Comment and OIG Response

The PHS agrees that greater central management is needed in the Deparment to deal with
scientic misconduct and therefore has developed a reorganization proposal involving the
NI as well as the Office of the Assistant Secretar for Health (OASH). The proposal calls
for establishing a new Offce of Scientifc Integrty within NIH with the operational respon­
sibilty for conducting investigations. Another offce would be established in the Office of the
Assistat Secretar for Health to oversee operations of the research agencies and to review
and propose policies.

The new Offce of Scientic      Integrty, reportng to the Dirctor of NIH would have the ongo­
ing operational responsibilties of monitoring investigations initiated by awardee institutions
as well as conducting independent investigations. The office needs to assure that the scientific
panels convened to conduct independent investigations do not have real or perceived conflict
of interest with the accused. The individuals selected should be knowledgeable about the
scientific area of inquiry but should not be involved with the research in question and should
have no ongoing close professional, academic or financial relationship with the accused.

Although including the Alcohol, Drug Abuse, and Mental Health Administration (ADAMHA)
extramural researh in the scope of responsibilty of the office within the NIH wil help to
centrize this function , this anangement may have logistical problems.
The PHS indicates that the office also plans to foster scientic integrty by developing preven­
tion and education program to be conducted by the extrmura research offces throughout
Nll and   ADAMH. We encourage the PHS in this effort. However, the PHS must assure
that adequate resources are allocated to this offce to deal with the range of issues regarding
scientific misconduct and to provide a " prompt and appropriate " response to allegations as re­
quird by the Health Research Extension Act of 1985.


The office to be established at the GASH level , which would be outside of the funding com­
ponent, would oversee operations of the research agencies and would adjudicate cases inves­
tigated by NU or ADAMH and impose sanctions if warted. The PHS is also considering
the establishment of an outside advisory group to review and evaluate PHS policy and proce­
dures governing scientific integrty. We believe this would provide an additional perspective
to the process. The advisory group should involve a varety of paricipants, including repre­
sentatives frm the scientic community as well as public members.

We look forward to reviewing the complete reorganization proposal and functional statement
and monitoring its implementation.


      DIG Recommendation


      The Department should expedite completion and publication of a final regulation on rhe
      responsibilties of PHS awardee and applicant institutions for dealing with and report­
      ing possible misconduct in science, as required by law. This wil facilitate the develop­
      ment of procedures by grantee institutions.

PHS Comment and OIG Response

The PHS concUIed that the publication of a proposed rule was urgently needed and long over­
due. As of September 1988, two Grats Adminisn-tion Manual Issuances were published.
Additionaly, a notice of proposed rulemakng (NPRM) on " Responsibilities of PHS Awardee
and Applicant Institutions for dealing with and Reportng Possible Misconduct In Science
was published in the Federal Register in September 1988. Currently, the PHS is in the process
of preparng a final rule to be published.

Final regulations implementing these requirements wil be published some time this year.
Since Congress has raised questions about the adequacy and effectiveness of the current self-
regulatory system in dealing with allegations of scientific misconduct, we believe that more
explicit and strcter regulations ar needed. We ar pleased that PHS has already strngthened
some provisions of the NPRM based on our recommendations. We believe that there is still
need for improvement, as discussed in the recommendations that follow.


      DIG Recommendation


      The Department should require all applicant institutions to submit their scientifc mis­
      conduct procedures on an annual basis to assure compliance with the law. The PHS
      should review the procedures on a sample basis and also in all instances where scien­
      tifc misconduct cases are reported to assure that essential areas are covered.

PHS Comment and OIG Response

In our draft report we had recommended that policies and procedures be submitted with each
grant application. We agree with the PHS that annual submissions would be sufficient for
monitoring puroses and have revised our recommendation accordingly.


      DIG Recommendation


      Theftrst line of responsibilty for conducting an inquiry and/or investigation into an al­
      legation of misconduct rests with the grantee institution. However, regulations issued
      by the Department should require that grantee institutions immediately notif      the
      Departent whenever     they detect or receive an allegation of scientifc misconduct,
      maintain records of all inquiries and investigations for a specifed time period and
      provide the Departent with periodic statu reports. The regulations should specif
      time frames for reportng and conducting inquiries and investigations. Although we


      ment.
      recognize the grantee institutions are concerned about flexibilty, these requirements
      are, nevertheless, necessary to assure adequate monitoring and oversight by the Depart­


PHS Comments and OIG Response

The PHS indicated that immediate notification of all allegations of scientific misconduct to the
Deparent appears too broad to be practical. We disagre.
Under the proposed rules, the awardee institution must complete an inquiry of an allegation or
other evidence of misconduct within 60 days. The funding agency is only notified of allega­
tions if an institution detennines that an investigation is waranted. The rules do not require
the reportng of all allegations to the funding component.

We believe al alegations,   which reach a   certain level within the academic institution such as
the dean , the deparent head or other official designated by the institution , should be
reported regardless of whether an investigation is pursued. This would assure adeq!.ate
monitoring and tracking of cases by the Deparent. The PHS should review, on a sample
basis, wrtten report of the inquires of those cases that ar not investigated. Additionally,
knowing the number of substantiated cases as well as the total number of allegations would
provide some perspective to the problem. MOle importantly, reportng allegations at an early
stage of development should be considered in the best interest of the grantee institution. Early
notification wil prevent charges of cover-up against the grtee institution since there is an in­
herent appearce of impropriety when a grantee institution investigates itself.
        DIG Recommendation


        The Department should keep complete and uniform records concerning investigations
        undertaken by the grantees and/or PHS in order to maintain baseline data on the in­
        cidence of cases. This information could also be used in refining guidance and direc­
        tion to grantee institutions in conducting future investigations.

PHS Comment and OIG Respo nse

The PHS concurs that complete and unifonn records are highly desirable for the reasons out­
lined in the repon. The PHS has also established a data base, in addition to the PHS-wide
ALERT system, to trck open cases and to archive key infonnation about cases that have al­
ready been closed. As pan of our oversight responsibility we wil detennine whether the PHS
is documenting and maintaining adequate records concerning investigations.


        DIG Recommendation


        The Department should encourage individuals with information about instances of pos­
        sible scientific misconduct to come forward. Grantee institutions should be informed of
    .   the OIG Hotline, which receives allegations concerning fraud and abuse in the
        Department s programs.

PHS Comments and OIG Response

The PHS concurs with our recommendation and indicates that notices regarding the reporting
of misconduct wil be published in the Nll Guide for Grats and Contracts on an annual basis
as well as the notice of a grant award.


        DIG Recommendation


        The Department should explore ways to protect the " whistle blower, " since detection of
        possible scientific misconduct relies so heavily on individuals wiling to make an allega­
        tion. Currently, Federal employees who engage in " whistle blowing " are protected by
        law. Similarprotection should be   provided to individuals reporting possible scientific
        misconduct by grantees.

PHS Comment and OIG Response

The PHS concurs that improved protection for " whistle blowers " is essential to the integrty
the process and is in the process of examining additional means of providing proper protec­
tion. Perhaps the PHS should prohibit awardee institutions from taking retaliation against an
employee that has made an alegation in good faith at the risk of losing their funding. Another
protection for the accuser could be exemption from liabilty or requirng the institution to
 defend the whistle blower if any legal proceedings are initiated. We agree with the PHS that
 appropriate protection for the whistle blower wil require legislation.   We understand legisla­
 tion may be introduced in this area.


       DIG Recommendation


       The Department should explore alternative methods of detecting possible misconduct.
       Examples of possible methods are spot audits of scientifc   data or special   reviews by
       editors of scientific journals.

 PHS Comments and OIG Response

 The PHS concurs in principle regarding this topic, although they do not believe that data
 audits are feasible. Also, the PHS is not clear as to what is meant by special reviews by
 editors of scientific journals. We have suggested this because we believe that journal editors
 who have access to key scientific papers could perfonn a radom audit of research papers sub­
 mitted for publication. This has also been suggested by the deputy editor of the Journal of the
 American Medical Association (JAMA). The purpose of the audit would be to detennine
 whether or not basic infonnation exists such as whether or not records and patients really
 exist.

  As noted by PHS, while it is not appropriate for the Federal Government to specify that jour­
  nal editors conduct special reviews, we believe that it is proper to encourage them to do so and
  to suppon other appropriate proposals to deter scientific misconduct suggested by editors sllch
  as arhiving data. As stated by the deputy editor of JAMA, joural editors are independent of
  the research institutions and are interested in assurng the integrty of what they publish.
  Therefore, an audit supervsed by joural editors would be impanal and fair. Such an ap­
. proach would not requir settng up a large bureaucracy.


       DIG Recommendation


       The Department should develop a table of penalties, such as the model adopted by the
        Offce of Personnel Management, to assure that sanctions are applied consistentLy and
       fairly in cases of scientific misconduct.

 PHS Comments and OIG Response

 The PHS concurs with the thrust of this recommendation, but doubts that they can develop a
 fonnula or a table. We believe that a table of penalties, which would include acceptable stand­
 ards of conduct and sanctions that may be imposed for failure to meet those standards is essen­
 tial in assurng consistency and fairness.
                                  . .




10.   DIG Recommendation

      The PHS should assume a leadership role and provide guidance to the grantees in mat­
      ters related to scientific misconduct.

             The PHS should sponsor a consensus conference to develop model guidelines
             for use by grantees in addressing all relevant areas of scientific misconduct.

             The PHS should coritinue its efforts in the area of prevention , such as the
             contract with the Institute of Medicine to develop scientific standards for the
             conduct of responsible science. The PHS should develop preventive guidelines
             and requir that institutions adopt these measures as a condition of funding.

PHS Comments and OIG Response

The PHS concurs with this recommendation. We encourage PHS to sponsor the conference to
develop model guidelines in the near future, since regulations requiring institutions to develop
policies and procedures wil be effective soon. As PHS stated, such model guidelines would
help to assur more consistency   in procedures, policy and protections. Additionally, smaller
institutions, as noted by PHS and supported by our findings, ar   looking   for additional
guidance in this ara.

The PHS agrees that it should have a role in supportng education regarding ethical issues of
science and should continue its efforts in this area. However it notes that the imposition of
such guidelines may not be desirble or enforceable. Recently, the Institute of Medicine is­
sued their report of the study to develop scientific standards for the conduct of responsible
science. Similar to our recommendation , the report recommends that the Nll require all in­
stitutions receiving Nll grants to have wrtten policies and procedures in place for promoting
quality and integrty in research practices.
  . .




        APPENDIX A

Telephone Survey Methodology
                                 Telephone Survey Methodology


The surey used a strtified random sampling method. A list of all 1986 research grantees was
obtained from the NIH. The list included the tota number and amount of research awards for
each grtee. By eliminating all foreign institutions, the population was limited to 1 214 in­
stitutions. Ths population was then divided into thee strata, those with 100 or more awards
per institution , those with 10 thugh 99 awards per institUtion and those with fewer than 10
awards. The following table sumpzes the results of this stratification.


            SELECTEe INFORMATION ON NIH GRANTEE INSTITUTIONS BY STRATUM

                    No. of        Tot. No.               Total              Amt. Per      Amt. Per
Strata              Instit.       Awards               Amounts                 Instit.     Award

100+                              15, 243          $2, 599, 810, 599      $35, 132 575    $170, 558
10-                   186            003               890, 293, 363          768, 523     148, 308
                      954            985               232 690, 637           243, 911     117 , 225


                      214         23, 231          $3, 722 794 559        $ 3, 066, 552   $160 251

Systematic radom sampling was used to select approximately 30 institutions from each
strata. The following table summarzes the results of the samplig process.


       SELECTED INFORMATION ON SAMPLED NIH GRANTEE INSTITUTIONS BY STRATUM

                   No. of          Tot. No.             Total               Amt. Per      Amt. Per
Strata             Instit.         Awards             Amounts                  Instit.      Award

100+                                     097          311, 966, 670      $43, 732 222     $184 862
10-                                      005          155, 964, 189           031 103      155, 188
                         30*                               991, 209           299, 707     136, 230

                                         168       $1,476, 922, 068      $ 3, 695, 259    $142 082

* Only 28 of the 30 institutions could be reched by telephone.

** Weighted average bas upon weight derived from the population of institutions.


The sample consists of 40 percent of the institutions with 100 or more awards, 16. 1 percent of
the institutions with 10 through 99 awards, and 3. 1 percent of the institutions with 9 or fewer
awards. The sample slightly overestimates the average award amounts but is stil within sam­
pling varations. Because the surey used a sample, weighted averages and totals were lIsed
for projectig to the universe of the institutions. In the following table, the weights are the
proporton that each strtum is of the universe of institutions.
                     Number in                        Number in
Strata                Universe                            Sample     Weight

                                                                       061
                           186                                         153
III                       954                                  28*     786

Total                    214

* Only 28 of   the 30 institutions could be reached by telephone.
        . '




              APPENDIX 8


Areas Incorporated in Procedures/Policies
                        Areas Incorporated in Procedures/Policies
                             Telephone Survey Of Grantees

                                   100+     10 to 99           -=10      Weighted
                                 Awards     Awards        Awards         Average

Investigations                   27 (96%)   16 (100%)     3 (100%)            99%
into allegations
of misconduct

Time frames                      13 (46%)    10 (63%)                         35%
for inquires
and investigations

Do not alert NIB                 23 (82%)     4 (33%)       1 (33%)           47%
at initiation of investigation

Alertng NIB                      23 (82%)    11 (69%)     3 (100%)            84%
at anytime

Prtection of                     23 (82%)   16 (100%)       2 (67%)           83%
confidentiality

Due Process                      21 (75%)    14 (88%)       2 (67%)           76%
and appeals



Retention.                       7 (25%)      7 (44%)       1 (33%)           35%
storage and
ownership of data

Validation of                    9 (32%)      7 (44%)       1 (33%)           37%
researh

Retraction of                    14 (50%)     6 (38%)       1 (33%)           39%
published arcles

shown to be fraudulent

Responsibilty                    11 (39%)     6 (38%)                         24%
of coauthorship

This is based on the number of grtees that reported having policies and procedures in place
to deal with scientific misconduct: 28 (93%) with 100+ awards; 16 (52%) with 10 to 99
awards; and 3 (11 %) with awards.
                     . .




                           APPENDIX C

            The Emerging Area of Preventive Measures:

Fraud In Biomedical Research: A Time For Congressional Restraint,

                               and
        Guidelines For Investigators In Scientific Research"
 ,. ""y
    -..
 :. .._.. .., . ..,
       ,.--                     -- -=--        .. .. --""   -,' 
' '--..
                                                                   ..... ...----
                                                                   -,                  ,.




1+62	                                                                      THE              EW &. GLA"iD JOt.1L"iAl OF' MEDICI:-E	                                             June ::. 198


matico When theY are confrmed, such obser.ations                                                                   federa goverment to monitor the intC!ty oi the bio­
wil n   to be rel ted to l'ent findings on the role of                                                             medica-reearch enterrie in th way? First. bv IU
                                                     procnamide. such a. pron­                                     nature such an attempt would &.most c::univ be
ceruin metabolites of
amide hvdroxvlamine lo and the niC'so deri..-ative,                                                                                                      Rce:er
which       bin d to histones.
    Continuing study of these sydromes should d
                                                                                                                   clumsy and bure.ucntic.
                                                                                                                   dened by having to prepare
                                                                                                                   applications and          rert
                                                                                                                                                          sev
                                                                                                                                                      alead., bur­

                                                                                                                                          would probably acquire still
                                                                                                                                                                          endless gTant


en our understadig not                                       only of these clnical syn­                            more paper obligations   in th cue designed to
dromes but alo of systemic lupus                                                        erematosus.                dc:onstr.ue thei honesty. Wore, if the hearigs
Physicians should be on the lookout for reteant drug                                                               themelves ar an indication of the govemmen t ' s un­
and environmenta associations and bring them to the                                                                dertading of the way             rec: is done. the govern­
attention of those concered with undertading these                                                                 ment s attempt might be badly miinformed. Tne
syndromes.                                                                                                         beags often seeed to equate                 err
                                                                                                                                                   with f ud. and
    do-                                                                                                            the sae indignation was shown toward both. ErTr
Ci. GI
MI                OM "'%67	                                                EvnYN HES, M.
                                                                                                                   due to calesnes is culpable, a. Engler et al. have
                                                                                                                   pointed out, I but honest errr is not. The la.tter is at
           lUas
                                                                                                   leat as      mucn a pan of scientific             rec:        a. trth.

 I. Ho      d-- 1a1i,
           o.                      'L. .    .n1 ID
                                                                                                                   Even with the bet effort, no scientit an be certn of
                                                                                                                    Dot baving mae          an enr.                           the gover­
    ht	 Si
                          IJ.                                                                                                                         Thus, efort by
                 Sacf. c.
                     Ii
                       CI JD.
                                          . AI
                                               HA. Pe HM Jr.
                                                             ; 51;1
                                                                  CI ID                                            ment to mae biomedica reear
                                                                                                                   bud but of err as well would crte                    a
                                                                                                                                                                              not only of
                                                                                                                                                                              clmate 'that
 3. 1.
       1:129039.
                 AT.
                      a, HYJ. IL
                           1'.
                                               Tau
                                                i8 --	
                                                         .. 8M

                                                                                             N Ea J ,. It6
                                                                                                          195;
                                                                                                                   would alost cey diuae
                                                                                                                    beming biomedca recac:,
                                                                                                                                                                 young peple frm
                                                                                                                                                                 at a tie when our
       267: 13"
      . T- EM.              c-            AS. Fr1F. .         u. i1 191                                  r.. ID                          went is alredy dwidling.
                                                                                 "' IU 191                          pol of new
                                                                                                                       Feder ovght might                       wo                    if it
               1%71.
                          MR.       a. P' ID   EJ Jr.
                                                             1f
                                                                   B. 1:1   S.     -.I.. P. S)'
                                                                              f.a UlaU.. ft at .
                                                                                                                                                          be
                                                                                                                   c:d enure fraud-f" scc:Ct but it caot. F'tnt,
                                                                                                                   the gomc:t doe not have a strng rerd in its
                                                                                                                                                                        the




 6.    1.            A.    A4 L.              Zi           19C %1ft
                                                         H. Ha E.
                                                                                 %7.
                                                                                              ar    01             overight efort; wimes the Pentan s monitoring of
                                                                                                                                                          miconduct is inevtable
         lr                                                                      1981       %4:101...               defene centrctors. Second,
                18
 7. FnIZ Io. TaD EM Al"" D
                "'f	 J Ci
                                             pI AI
                                                             IuI8 en....... 
                                       in al fields of endeavor. Ther may be less of it in
 I.    T--                   1918:
                                                                         at -bo
                                                                           1I I..                                   scentific: reea th in other fidds. The National
       -- ca
          Me. TaD SM. McNa EM. It RL
                                                                   I'
 9.
       pI N E
            	a J M8 19U: 311:1-43104.
        .. JU Me8I EM
              ID
                                  sa.
                                 H2-H2
                                          1C-H2 wa


                                                  It
                                            t= _.4 .J_
                                                                                   C\ Ta SM. ItO
                                                                                                                    Institutes of Heath (NIH), which suppon the wor!t
                                                                                                                    of approximately 50, 00 scientitS reve a yealy
                                                                                                                    aver              rert
                                                                                                                            of only l to 20      of aleged miconduct
10.
        II 	


         I' .- It1I"       RA.
                                     Ci
                                               SM. c: iA.
                                                           a, fa
                                                                    ..1. He
                                                                             198
                                                                          .. Ii
                                                                                               i1
                                                                                              _aru
                                                                                             EV.
                                                                                                                    in itS extrur progn ; we have no way of mow­
                                                                                                                    ing, of cour           how may intace of bud                   go un­
        WI DI
11.     u.                 FP. 	
                                    191: 1':J
                                                 .. pa 
            'Of'
                                                                        I'                  Ea 11 191;
                                                                                                                    supeed.
                                                                                                                       Many defender of the integty of                  reea have
                                                               . J
                                                                                                                    pointed out tht science           is sc:-cn-ng by            vie
                                                                                                                    itS tnitions of per reew and opees and its
                                                                                                                    reuient of veribilty. Furerore, the peal­
                                                                                                                  .. ry for frud is los of reutation and dfeae bah­
                                                                                                                     ment &om the scientic communiry       censc:uc:ce:
               FRUD IN BIOMEICA RECH
                                                                               tht few would rik.            evc:c:es. we have              probably
                 A TUDe for Coagrsioaa                                            Rest
                             be to complacet in reyig
                                                                                                                    we have see            to may       ret
                                                                                                                                                                      saegar:
                                                                                                                                                               on these
                                                                                                                                                                 intacc in which
       IN Apri the U.s. Congr held tWO set of hear­
                                                                they have failed to        pret       or detc:               ous dis­
ings to investigate the cctent of fraud in biomedi­
                                                                honesry, and to         may ditory investigations
ca reea            rense of the scc:tific cem­
munity to iL Clealy, some
                                    and the
                                                                        ,mc:be of Congres
                                                                                                                    ous
                                                                                                                      The
                                                                                                                          ch.
                                                                                                                           reea             community thc:ore
                                                                                                                                                                                   of ser­


                                                                                                                                                                       caOt aford to
beeve tht ther is a                                     go
                                                    dea. of fraud and. more                                         dimi the conce tht ba given rie to the l'ent
importt,                         that the scientific cemmunry resnse to                                             heags. Cong is reponding to a widespread view
it ba be                          inadequate. Ther have          suggestions       be                               tht the      reea cemmunry ba                    DOt taen the     epi­
 tht the biomedica-rec: enterprie requir                                                                 some                                   sely
                                                                                                                    soes of dihonesty in itS midst          enough. that
son of policing by the goverment, sice we have                                                                      we have be " Stonewaling " the prblem. Ther
seed unwillig or unable to                                              polio: oundves.
                                                                                                                    some trth to this chl'e. When the fit highlv publi­
laton have even suggested tht a separte overignt                                                                    cied etuoes of fraud em        in the late 19705 and
agency be established for tht purpe and that re                                                                     c:iy 19805, we wer reiuc:tant to give them due atten­
secher thought guilty of miconduct be subjec to                                                                     tion: we wanted to beliC'e that each wa an islated
 crminal indictment.                                                                                                abetion that wouid not rer. In addition. rerch
   What would be the reults of an                                                       attempt by the              intitutions did not h             e est:1biished    proedure for
                                                                                ..
                                                                                 j.         ..=- ". ...----..--.--- -.--.
                                                                                                                   . .          -. -         -..          -.




   Vol. 318 
        o. 2:	                                             S:'Z:HTO R!J. L.




   deaing wich 
                     ations oi fraud. so e3.cn epUoe was               do          oo. c:r               (uj work: on tbe exher. d1ev are                          co cio ic In
   wdled on an ad hoc basis. oiten by pepie so dose                                    '" nurrv. Impiementing tbe retmmendation oi tbe
   the situa.tion tht cbere was an innernt ccnnic! oi                                  R:aar d guidelines would be an importnt step te­
   intert.                                                                            ward          ng this situation. For tbis proposal co be
         Since chen. che             !'e:c: communi          ' ha le3ea a             efi :i""e in fostering qualty              tit.. , publica.­
   go dal about dealgnumbe
  Danee ase in 1981,
                       with Crud. Son
                            of o
                                                                   after ene          tions above che sripulated numbe should receive no
                         a                                        tions and           attention. To emphasize substac:e over number even
  intitutions. including che                    NTH ahd the .    ocation of           furter. citations of reerences in proposals for aa­
  Ameran Medica                      CoUeges. deve!ope       p.edu       for          demic: appointment and gnnt a.pplications mighc be
  reponding to alegtions of frud. Thesepl'edur                                        reuire to include brief summaries of the content oi
  incorpr'ce due con                           for boen the acced and tbe             e:ch arcle, together with explanations of iu contr­

       whid        blower. " and in. some C3es provide for p                          bution to the field.
  ticipation in che investiption exper ouaide tbe
  intitUtion in question co faciitate objecviry. Eaiy
                                                                                        The
                                                                                      fit
                                                                                                        Har
                                                                                                        guidelines. although th are only ..
                                                                                           seep, reresent an importt effort to control d1e
  th yea the Intertional Committee of Medical                                         temptation to CUt comers in biomedic:l"e3rch. The
 Journal Editon isued guideHnes for editon to follow                                  Insetute of Medicine of che National Aademy of Sci­
  in deang ..th th   problem. J With proedure in                                      enc:=. under ene sponsorship of the
                                                                                                                                                                              tH. is alo
  plac:e- institUtions that                   e3iier fiounder in hadli                scud ing ways in which the s                                        stem could be reformed
 cues of fraud have more recendv !'olved tbem                                         to discourage miconduct in biomedica !'earc:h.
 tiveiv and in an orderi ' Way. However, these later
 cu                          olved too pritel . The
                                                                                        Even the' most suic:y monitored system an 'never
       have pehaps

 pubHc: ' s demd for acuntabilty in the spedig of
 CD doUa on biomedica                           ree3                              se
                                                                                  c:minate occaional episodes
                                                                                         community iaeif ca do much to reuce their
                                                                                  incidenc:e and facilitate their detecon. M Goverment
                                                                                                                                                               of Crud. but the           re­

 mat the            reea            is after al. Iq;ti­
                    community must not omy poHce
 iue but be see to do so.                                                         ca have its most vauable roie her by enuring chat
                                                                                  reeach inticutions m:eiving govement sUpport
 the
       Guideies isued to date
         to bud. In Mar of th y
         rtfH"
                                                   bave manlv con
                                                                  Har             bave appropriate                              pros
                                                                                                             established for ac:com­
                                                                                  plishing these purpses. Conges ha a1e: Wen
 Medca Scool isued a set of gudelines deang with                                 an importt Step in this
se
 i13     . These                      c:
                      for d oser sucer.-ii on of re
                                                                                                             tion by reuirng (P.
                                                                                 99158) that any orgnization applying for research
     tree.                    more     caui         cheri2' a.nd Slong!! o       funding must provide asSUt'c:es that it ha esab­
primar data
czr :I"d m                 the establihment by deparents of                      lihed a
                                                                                 and tht it wi
                                                                                                        pro
                                                                                               for responding to alegtions of fraud
              "in2fi cntm:a in!" 2m+'''n
scenric pape, and a
                                         hi of
                      iation on fj,.. """' 01 of
                                                                                                                          ren to the sec
                                                                                                                      of the Depar­
                                                                                 ment of Haith       Human Serc:= when an invesri­
                                                                                                                         and
  bl..",,". ryt'M fn" r:iQUev acooincmem or pro                                 ption is ben. 2 It must be undertoo. hQWev r, cht
motion. The incruc:on to the gudc:nes emphasizes
tht they an just tht, not rues. benc:: they an not
                                                                                the job itsel canot be done from ouaide the
                                                                                =mmunty without jeopardizng th from cht
                                                                                                                                                                               reeu
biding.            Her
               lies one of their weaeses. To ac-
                                                                                reuire for reeach to tfoursh. The biomedca­
CDmplish the           pure.
                     inticutions wibave to deve!op
naes not sipl guideles. and these rues wi have
                                                                                ree: communicy is                                       will"! a.nd able to polic:e iaeif
                                                                                and istag                                Steps to do so more dIeael . Let
to be somewhat more deted.
"! One of the renably
the      Har '            iicic remmendations of
             gudeles is tht the number of publia­
                                                                                us hope tht Con
                                                                                to work.                                        rs wi gie ch proes tie
dons reewed for faculry appoincment or promotion                                                                                                         MAJtCA ANczu, 


be limited. They suggt, for exple. ' that no more                                                                                                  AaOLD S. 1U,
th 5 pape be reewed for appoincment to the posi­
tin of asiscazu proft:r, 7 for          profesor.     aste                        I.                          o-
                                                                                                               !Ii8 J 1oloiI
                                                                                                                                 Rzc:

                                                                                                                                    IC
an   10 for profesor. If such a remmendation i3                                                         RL                rw.
                                                                                                                                        18
                                                                                                                                                   Pf.           PS.
                                                                                                                                                                       l'
                                                                                                                                                                             AM.
                                                                                                                                                                                       1981:


                                                                                    -..0-.. .. tI $8 H-	li_ai R- S.­
wiely adopted     by Study seaons at the NtH                                                311:13'3­
we as by the medc: schools it will be a sha                                      1.
                                                                                            I.
                                                                                            .,.. Jt              S-

depe frm the preent sytem of reyig iaeiy                                                                                         Co- -- atHa_H_s.1988.1:.
                                                                                                                                                           e- ..




oa the sie of the biblioV3 phy in evaluatig cadi­
daces for promotion or fundig. + Th  rdiance 0
                                                                                 3.


                                                                                 4. L.
                                                                                            191. ""...
                                                                                                        AI
                                                                                                              ia
                                                                                                                                0( M8 Jc EM
                                                                                                                           1o 191:
                                                                                                                                                  of
                                                                                                                                              10:..
                                                                                                                                                                        a-
                                                                                                   S.                                                               .J607.
            an in tene          oreure on in                                                                                           .. !o J 191:
                                                       rip           bWh                                 Itei. n.                                  at hM il                  A8 .. M8
as fruency as po1bie. and almost cenly lea                                                  191 106:.



                                                                                                    90
                                                                                 &. WcD PK. PN1D                                         aM hM il                      AI I- 1o 1986
    piness an  haos co more :!erious m;""Mt' ct. It
al prouc= a bia in the system favoring !'tively                                 1. H_!..
                                                                                            106:
                                                                                                        !I                             .4"	
D"' pl..
   n2'
                 ,rudies
            . difcut
                           tht ca be com cleted
                                es tht
                                                             racid ly over
                                               may be more importt.    Ia
                                                                                            II
                                                                                            106:
                                                                                                     s. 	
                                                                                            .98: 106:m.
                                                                                                 JC ID                                                               A8
                                                                                                                                                                           "-I- M8
                                                                                                                                                                               1o 191
e:c::. we                  ve   be givig investitCn a cona'­                    9. A. MA
                                                                               10. 	
                                                                                                             ""''J!. 	
                                                                                                                            aa -
                                                                                                                                                         Al1- M8 191 106,:aI.
                                                                                                                                                           . If e. J W8 191: JO:
                           : on the one had. they ar expeed                            AS
                                                                                            1-41j.1.
                        ;)          -' ':                                    ..                            !:

                                                                                                                .. y. d        -"um Gazette June'


            I8 . -'
                                                   C""                                                           iI   SQ.
            T1 p_ti 

                        itM ID       Ur       pr
                                          ia cf ia da I8ro ne
                                                                                               rely                              by                            at    tb FIuity

                                                                                                                                                      ar pidlinc
                                                                                                                                                            coif.
      at

      .. tbm
      rerc Th
      fr wf
                                I'ria tilaco caiara
                              is to brllD

                              ealf                 forul
                                                         becmiDl dI
                                                         na bu ra&h as
                                                                      to me laaio
                                                                                       ar no
                                                                                                      at

                                                                                                                       as
                                                                                                                                      prar u.r                        at

                                                                                                                                                                     in JCcitic


                 S., J
                             ef     ID uuelrty of iu
                                                 me quity
                                                                     of ia                                                  iu oWn Ie                 oflplC pne.
      D.



      me
            Ca
            iait                SI                                        is iD di ba iDr
                                                                      De ia
                                             di pnr. di rniae1D di cati COunity.
                                                                01                         .ton by
                                                                                   Th coplex.
                                                                                                                cb     pr
                                                                                                                       i:l
      ic of        te
     da. ID di De for
     pror ia me                                                 ad
                                                  di neiry (or ca..im il      poible amiguous
                                                                               swisrK:aJ aaysis all reu      IC(i

                                                                                                                       re
                                                                                                                                                                    role (or the
                                                 pid                   0(    ne UI\lrilators Th  is pajcuWy cr
     como                                                              a    rniD who                                                                            in th DOC un-



     Ie
                             cira                               0(
     ia laratory scce.
                                                                                            ia I        unir wirbr                                                            nce


     I. Th resibilicy (or                                                                 ca
                                io o(
     asillne co soe (aculry mebe Us                                                      eal'              juaior ia
                                                                                                                      ..it
                                                                                                                              til.ror snd                     be spcific:1l1



                                                 sDi8p                                                                                  ra pr
     2. Th rario of trai                                                                                                =mqh thr close in&c"
                                                                                                                 ap
                                                                 ,n r re                  shold be smaU
     poible far sccic                                                                                                                                                      1ion U
     3. Th prepor
     quinl, rerda.
                                                    su                                u well u

                                                                                      di dep               at
                                                                                                                            of di
                                                                                                                                        aD di
                                                                                                                                             prr
                                                                                                                                                              Ir all srales
                                                                                                                                                                           of ae:.
     llhe "*

     Ib    Coilq
     ID If aD
                         bo to
                   be beJd
                         iaor pe nM.
                                    di
                                     re
                                      pr
                                     to di
                                          Pfn
                                         ca IG
                                                       euin,.
                                    to di ediril ofllus do
                                                                 UDl all
                                                                                                  ..1D srril



                                                                                                            aa
                                                                                                                DOpr  cn   c:iru
                                                                                                                      ICIC dfon
                                                                                                                                 (& (A
                                                                                                                                  ia)
                                                                                                                                 rallir
                                                                                                                                 adre



                                                                                                                                 -be                  01 di
                                                                                                                                                                     wn limiu



 ,. Th prr sb pro ca De iaYepl (
 Ielow , or juaio facy) wi                     ID
                                                                                               't                                  iDti reu  snt. posrdora
 I'
 oc
 DL DM
            c:

                  ha
                slUie ia    1  hedty
                                at

                                  Db_ DNA
                                           or pariea.
                                             subsraes an


                                                         SC
                                                                             apUc1e




                                                                             Jt" " to.
                                                                                                                                         ioi
                                                                                                                                          1Iim




   A comon deminator in mosr cue of alleed se:ieruifie:
                                                        lDonuc: ha ben the
     nce of a complete sa 01  tiable daca Th
 rerrinale reuluis of uunasl import (or di         o( acanlely ruord antJ
                                                    of JC1C iair. A sc­
                                                                                                                  reti
 entist must ha                              ac:=s to hi/her orilina
                                         resu.ls Us
c:udinc. bu DO limile co. dise mal may ar wirb
cty. Moreve.                            CIn
                    may be misuken (or misUC wh me
                                                         to         10
                                                       IDY imp'icio of impron­
                                                                                  in-                                 or                                      qu
                                                               prmar espemental
                                                                                                                      IC reir
relu ar una ilable. (n addition wt'
prion da
of
         of      ir
                  lIs.
                          be     in me dep      at     sb
                                         z.,iMicaJ anaJysis is
                                                                             us
                                                                       in th inter.
                                                          as wen as in me evluacion

 1f I 

     I.    CII                 of aU             oncn prma                                                 dara mil              rein
                                    II. .
                                                                                                                            be
 hihe OWar pnle.
 wtid th                                                              An in"Ctigaror lDay                       mde                0(
                                                                                                                                                       by di IIr in
                                                                                                                                          me prma dau (or
 2. Orgi a  .1o reu sbd
 treb aum pa                              wb poible ia bo boks
                       ia  sb    be l1i1
                                       pa

                                                   ac
                                                                                           be


3. Ma pr-o 80 be at
                                                            AJ
bo.                                  men fr di 1a       1D DO.                                 10 01
                                                                                                                        IG f8lirare                             10

4. Prma dara sD i'ain in !b 1a (Ory al an
as lonl as me is any rele ne to mer th.Ur     an sbd be pl'
1I;1 musl deid wft to
or lordi                pr   liCe o(
                                           Th
                          instae. howCY. sf pr
                               su pr-dara      Jiva
                                                     cadi
                                             di unit bJ lI
                                                          deyed
                                                                                                            10
                                                                                                                            (or I
                                                                                                                                  dlie(          n(

                                                                                                                                                      num            0(

while in\lrilarors
                     legu or rade o( pulis reu
swer'e on'y by re(er su data                            quti   an­                                                                      may rais
                                                                                                                                                 dara be

                                                                      IG
Iv         A8

      A grdual diffio o(
led in reenl yean (0 th
                                                                 reibilcy for muhi-aure or c:Uabnci stie has
                                                                pulie:arion of
                                                                                           pape (or .,thdl no single aulr                                       "u pre­
pamJ to take (uJl reibility. Two crric.
sciencific rens ar the ae:tive panicipalion of cadi                       01 accunce.
                                                                                                           saepa            in me publicalion

                                                         aumor in vefying that pan
of a manuscnpt thI (ails wIthin- his/he spiajly IR an
                                                           the deicna1ion of one au­
thor ..ho is responsible (or th vaiidity of the enure manuscnpl.
 .._                                             ..




Re .Atli                                                                 sb           de
I. Critea for auchnn
ea cient
ri       10 be tht the
                                 of    re       0(          maus1'               be
                                          unit Th Comminec caidcrs th only reable crite­
                                  co-auchr ha mad a sipifcant intellecnal or pnctical concrbu­

                                                                                                    an annoed

                                                                                  Ionble.

lion. Th cOf
!. The tint authr        sh as    of '"rv authrsip "                      is

                                                               th head of each     rescar unit or dearment chir­

pe             tht slhe ha reiewe
prvide a bref de1'ion of
                                                            aU th    prima     data on which th rert is ba an

                                                            each co-authr. (In mwti-    iatinaio conabratios.

'he . 'iniur           Invesug:uor In c2ch                         pre su stamets)

                                                             institution sfuld
                                                drft of !b manll1' sb be. si s&1C fr
3. App.
                                                            reie an apro ID ID11 10
                             10 the tin
       '1 ......"m.t

estet possible. siva indiviua
                              Prtd
                                       ';;jl.inl tht iI be

                                                              es.
V. PUic

an      re8dltr
   Th Commiae ba 
                         ob we ceiapnse nf
                                           copie apmew
                                                                        ieer      dat aae it cW1C1 for
                                                                                         &b                              data

                                        a SN. aa th su
                                                                                                                    at
                       co folow .                                                                    paictie
                                                             sipdlC th palic­
                                                              siila ab
with                              ta       aI                                           at



                                                 coteL su ciUl
                                                reucbility or
ri 0(                                                                            alllullip6                         or ma­
                fncm              aI
                                                                        wo
                                                    wMtb r=      da ialy.
uspu             y silbdy in
                  differnl      fa
                                            wu
                                                       &b                                           if aay     al

                                   &b
qution il describe impeecy. th statiticanlys we ftawe or iDppro
          is
me we        diflCl co

priale colusio wer drwn. Invetiaaton
                                                     dein


                                                        manus1'                sh reew ea prse
with       th
          principle in mind
Recnuli                                                              reviewe at lime of facwty apnunnt or pro
I The number of publications 10                                 be
motion           sbd
             be limned 1ft ordr
                                                  iata­five     10   encou&e an rewar biblio,nphes cotaining
fewer bu more sustative                               pulicatios ratb di Ibse i8tudinllfy
lial. fnamented T'rt (It ha be sute                                              (or uamplc:1b         lI more tb
pape be reiewed (or aptmt as Astat Pres. lI ma dL
                                                  se for
 Asiate Prfesr. an no mo th 10 for Presr.
 2. Simultaus sumissio of mulliple similar abnc                                              or   manus 10 jols

 Imp,.r.

 VI.

       Beaus each re:u
 me:h..-ds. eal.:h unit
                                                 unit       Jd
                                          differnt scientific prolems with different
                                    its own spific luidelinc to idtify prac:tI:es
                                        ihuld develop
 Ih;u ;cm mo t lik.ely 10 enh:ac:e the quality of                                rearc
                                                          conducted by Its member..
 Th\ 'e ';'Jic.elin should be provIded to the ne  invc'Sug:uor      't:!rtln ...'r!t              up
.. ,..,-   .   . - -.   . .




                              APPENDIX D


                              REFERENCES
                     , "                                                                     , "




SELECTED          REFERENCES

Marcia Angell , M. D.      and    Arold S. ReIman, M. D. " Fraud in Biomedical Research-- A Time
for Congressional Restrait,             The New England Journal of Medicine.                  June 2 ,   1988.

Marcia Angell, M. D. " Publish            or Perish: A Proposal,    Annals of Internal Medicine.                 Febmary
1986.

Barbar 1. Culliton Random Audit of Papers Proposed,                          Science,      Vol. 242 , November 1988.

Robert L. Engler, James W. Covell, Paul J. Friedman, Philp S. Kitcher, and Richard M.
Peters, " Misrepresentation and Responsibilty in Medical Research The New England Jour­
nal of Medicine. 
 November 26, 1987.

Penelope J. Greene, Jane S. Durch, Wendy Horowitz, Valwyn Hooper Policies for Respond­
ing to Allegations of Fraud in Research " Harard University, Division of Health Policy Re­
search and Education. Reprinted from   Minerva, Vol. XXlI1 , No. 2, Summer 1985.

Institute of Medicine, " The Responsible Conduct of Research in the Heath Sciences,
Division of Health Sciences Policy, 1989.



Robert G. Petersdorf, M.              The Pathogenesis of Fraud in Medical Science, Annals of Inter­
nal Medicine. 
   Februar 1986.
Public Law 99- 158, " Health Research Extension Act of 1985.

Mark B. Roman, " When Good Scientists Turn Bad,                  Discover.              April 1988.


  S. Deparent of Health and Human Services, " National Cancer Institute Grants Process,
National Cancer Institute. NIB Publication No. 86- 1222 , Revised November 1985; Printed
Januar 1986.
  S. Deparent of Health and Hman Services, " NIB Guide for Grants and Contracts:
Policies and Procedurs for Dealing with Possible Misconduct in Science, " Vol. 15, No.                             11.
July 18, 1986.


       Deparent of      Health and Human Services,          PHS Grants Administration Manual , 1988.

  S. Deparent      of    Health and Human Services,         PHS Grants Policy Statement,                  January 1
1987.

   S. Deparment of Health and Human Services, " Summar of NIH Fiscal Year 1986 Ex­
tramural Awards, " National Institutes of Health. December 16, 1987.
United States Genera Accounting Offce, " Biomedical Research: Issues Related to Increasing
Size of NIH Grant Awards, " GAOIH- 88- 90BR, May 1988


FEDERAL REGULATIONS

 Admnistration: Alert Records Concerning Investigations or Detennnations of Misconduct
by Curent or Potential Recipients ofFunds for Biomedical Research " DHHS/NIHOD.
Notice. Federa Register. Vol. 48, No. 320. November 29, 1983.


  Debarent and Suspension from Eligibility for Financial Assistance.       " Final Rule.   Federal
Register.    Vol. 45, No. 198. October 9, 1980.


  Government-wide Debarent and Suspension (Nonprocurement). " Notice of Proposed

Rulemakng.   Federal Register. Vol. 52 , No. 202. October 20, 1987.

Office of the Assistant Secretar for Health; Privacy Act of 1974; System of Records.
Notification of altered Prvacy Act Systems of Records.   Federal Register. Vol. 52 , No.       1 02.

May 28, 1987.


42 CFR Ch. 1 , Par 50, Subpar D - Public Health Service Grant Appeals Procedures. Oc­

tober 1, 1986 Edition.


45 CFR Subtitle A, Par 74 - Admnistttion of        Grants. October 1 ,   1986 Edition.


45 CFR Par 16 - Procedurs of the Deparental          Grant Appeals Board. October 1 ,      1986 Edi­

tion.


42 CFR Par 52 - Grants for Research Projects. October 1, 1986 Edition.


42 CFR Par 52h - Scientific Peer Review of Researh Grant Applications. October 1 , 1986

Edition.


45 CFR Par 46, Subpar A - Protection of Human Subjects. October 1 , 1986 Edition.

..




       APPENDIX E


     AGENCY COMMENTS

            '''                              . .                                             ...,
                                                                                              ::.. :::.
                                                                                              ~~~




'''YlCI''


                  DEPARTMENT OF HEATH &. HUMAN SERVICES                      Public Health Service


   ..a
                                                                             Memorandum
     Date                JAN 3 0 1989

     From
        Assistant Secretary for Heal


     Subject      PHS Comments on OIG Draft Report "Misconduct in Scientific Research
                  OAI   -88-07-00420
                  Inspector General , as



                        Attached are the PHS comments on the subject OIG draft program

                  inspection report.


                                            Robert E. Wi ndom , M.


                  Attachment




                                                                                             ,t.;
                                                                                             ""1


                                                                                                 i::'

                                                                                                    '-.1
                                                                                   ----




         a:GE DR RE "MISO
                   OF TH PUBL I C HF TH SERVI CE ON TH OFF I CE OF
                           OAI-88-07-00420 ,
                                                 IN SCIENIFIC RESEA"
                                               SEPER 1988
                                                                      NSPrx


 General Cbmments


  In its report, the DIG attempts to determine (1) the extent to which the
  National Institutes of tIealth' (NIH) and its grantee institutions have developed
  and imp lemented pol i ci es and procedures to prevent, detect, and handle
  scientific misconduct cases; and (2) what selected grantee institutions have
  learned and implemented as a result of their investigations of alleged
 scientific misconduct.       In general, the Public Health Service (PHS) views this
  draft report as a useful discussion of some importani issues related to
  allegations of misconduct in   PH    extramural programs. -. We believe, however,
 Jhat many of the   recommendations    merit further careful analysis and discussion
  because of their potential impact on the relationship batween the university
  comunity and the Federal Government. The need for open communication cannot
--overemphasi-zed, especiall-y---in- this sensitive ' andhigly     visible area   This
  is especially true for the     recomendation   to establish  an independent oversight
  body for scientific misconduct investigations. While the feasibility of
  establishing such an office has not been established, it is imperative that
  such an office not be divorced from the scientific community, as the expertise
  and experience of scientists are vital to the development of responsive and
  responsible policies and procedures in the area of scientific misconduct.

 The impl icat ions of the study' s findings have not been fully assessed in the

 text of the report. In   developing its final recommendations, DIG should

 compare the ramificat ions of strengthening the current NIH program, versus

 those of diminishing NIH' s responsibilities and establishing a central locus

 elsewhere in the Department. The current draft does not examine the various

 strategies that might be adopted to strengthen the overall role of the

 Department in dealing wi th scientific misconduct issues. Such an in-depth
 analysis would make recommendations emerge more clearly.


 In the area of "findings, " some of the statements are not actually factual
 findings but are judgmental  interpretations that have reference to an unstated
 standard. We question whether these statements add anything meaningful to the
 report. We also note that some of the recommendations have been ovetlken by
 events; for example, the Notice of Proposed Rulemaking on grantee
 responsibilities and the Advance Notice of Proposed Rulemaking were published
 on September 19. This recommendation should be revised accordingly.

  Some aspects of the methodology were not explicit. For example, we       have
  some concerns about the validi ty of the telephone survey methodology. The
  report does not provide any information regarding positions and titles of
  those who participated in the 89n telephone interviews. This is particularly
  important since it appears that some , of the respondents approached the survey
  as individuals rather than as representatives of their institution. Neither
  the background of the interviewers was described nor what the interview
  schedule was. In addition , the gamut of experience of the respondent could
  very well influence the nature of individual responses. Was t-h-e    more tlfan
  one respondent from each institution? Which institutions had more than one
  allegation or ase from which to draw? The reliability of the statistics
  provided in the DIG study depend on the onsistency between interviews.
-:-------



           Page 2


    -..O
           Add itionally, the information gleaned from the telephone surveys and the site
           visits is not clearly distinguished. Since      one of the two main objectives of
           the OIa study was to determine what selected grantee inst i tut ions have learned
           from their investigations of a-rleged misconduct and whether their experiences
           have caused them to modify their institutional guidelines, it might be useful
           to present information obtained from the nine site visits in a separate section
           and clearly identify     it as sqch.  Furthermore, it would be easier for the
           reader to distinguish data obtained from the nine site visits from that
           gathered in the 89 phone interviews if each finding that is currently prefaced
      -    wi th " some grantees " or " a number of grantees " or " a few grantees " is

           substituted with statistics (e.g., 4/9 , 3/30, etc.


           We are also concerned about he emphasis on numbers of grantees not having
           procedures, particularly in view of the sampling nature of the survey and the
           absence at that time of speci fic reg     tory requi remets.
                                                                      PHS shares OIG'
           concern that the 1986 guidelines are not being implemented by a majority of the
            institutions receiving NIH grants. However, the key finding that 93 percent of
           NIH grantee institutions holding 100. -01' more-aards -dve-suc- policies- and
           procedures should not be underemphasized. The survey resul ts tend to support
           our experience that the research-intensive institutions are increasingly well
           prepared to deal with allegations of misconduct.

           It appears that the authors of the report may have misinterpreted some of the
           information provided about NIH procedures. The variability cited in the
           handling of cases does not necessarily result in inconsistencies;    rather, it
           represents an effort to fine-tune procedures based on accumulated exper i ence
           and i ndi vidual ci rcumstances.
           OIa Recommendat ion


           The Secretary should provide for independent oversight and develop a more
           formalized and centralized process to deal with scientific misconduct including
           the following elements: (1) an independent third party to act as a fact
           gatherer and collect, retain and analyze investigative data; (2) an independent
           scient i fic review board to assi st in analyzing informat ion concerning
           scientific misconduct; and (3) an independent decision making authority or
           ombudsman type function. This is especially important given the congressional
                ern regarding the lack of independence of investigative   units._-­
           PH ComeR 


            e agree that greater central management is needed to deal with scientific

             sconduct.  PHS has develop d a reorganization proposal which would make
           changes both at NIH and in the Office of the Assistant Secretary for Health.
           This has been presented to the Under Secretary but not yet approved.

           At NIH we would establish a new Office of Scientific Integrity reporting to the
           Director of NIH. This office would have operational responsibility for
           conducting independent inves ations when needed and monitoring investigations
           undertaken by awardee     institutions. Its
                                                    scope would include the Alcohol, Drug
           Abuse, and Mental Health Administration    s (AD) extramural research
            activities as well as        . On the positive side , the office would foster

  - -----
----. --.                                                             --- -- -.        -- --.-.



            Page 3



            sclentlTI c In tegrity by developing prevention and education programs to be
            conducted by the extramural research offices throughout NIH and            The
            office would also develop and propose policies and procedures for approval by
            the Assistant Secretary for Health (AS) The office would have an           initial
            staffing of six full-time employees.


            At the AS level,             Quld be established to oversee operations of the
                                   an office

            research agencies and review pol icy proposalsfrom NIH before they are
            submitted to ASH for approval. In addition , the office could independently
            propose policies for ASH approval. Finally this office would adjudicate cases
            investigated by NIH or 
      and impose sanctions if warranted. This would
            assure appropriate independence of the adj dicative process. The staffing
            level for this office has not been determined. We are also considering the
            establishment of an outside advisory group to review and evaluate PHS policy
            and procedures governing scientific integrity

            OIG Recommenda t ion

            The Department should expedite completion and publication of a regulation

            addressing scientific misconduct, as required by law. This will facilitate the

            development of procedures by grantees. However, the Department' s reI iance on

            the PHS interim guidelines in developing regulations may be unwarranted in

            light of the current concerns about scientific misconduct.


            PHS Commen t

            We concur that the publication of a proposed rule was urgently needed and long
            overdue. The interim guidelines, which were published in 1986, were to be in
            effect only until policies could be put into place. This occurred recently, on
            September 1, 1988, with the publication of two Grants Administration Manual
            Issuances. Hence, fully binding policies now are in effect and communicated
            via the Notice of Grant Award. We are optimistic that a firm regulatory base
            will encourage and guide grantees in their efforts to deal with allegations of
            misconduct. Moreover, the comment about the Department' s reliance on PHS'
             interim guidelines is inaccurate in view of the pending Advance Notice of

            Proposed Rulemaking' s invi tat ion for coment on a broad range of pol icy and
            procedural opt ions. These comments were due by December 19, a d final rules

            regarding pr edures should occur soon after that.
            OIG Recommendat ion-


            The Department should require grantees to attach scientific misconduct
            procedures to the grant application    assure compliance with the law. The PHS
            should revi   the procedures on a sample basis and also in ' all instances where
            scientific misconduct cases are reported to assure that essential areas are
            cover ed.

            PHS Comment


            We concur   that grantee i nst i tut ions should be requi red to submi t copies of
            their. mj$Conduct        ocedures. However,   we recommend that this be modified to
            request submissions from all       applimt    institutions to the funding agencies on
--- -                                                                                                                 ..



        Page- 4




        a yearly basis. It is not realistic to request that this information be sent
        with each application: it would be at odds with the Paperwork Reduction Act
        and would generate duplication of effort at grantee                                        titutions since it is
        often the case that more than one application is submitted by the same grantee
        institution.  In addition , attachment of this information to each application
        would unnecessarily complicate application processing and expenses at the NIH
        Division of Research Grants, :Which annually receives approximately 35 000
        applications.
        OIG Recommenda t ion

        The first line of responsibility for conducting an inquiry and/or
        investigation into an allegation of misconduct rests with the grantee.
        However, regulat ions issued by the Department should- requj re that grantees
        immediately notify the Department whenever they detect or receive an allegation
        of scientific misconduct, maintain records of all inquiries and investigations
        and provide the Department wi th periodic status reports. The regulat ions
        shoula- speci fy time frames - tor - report                           ing and conducTing   lnqui r ies ana
        investigations. Although we recognize the grantees are concerned about ­
        flexibility, these requirements are nevertheless necessary to assure adequate
        moni tor ing and oversight by the Department.

        PHS Conmen t

        We concur that all allegations should be reported to the Department if they are
        found by the institution to warrant a formal investigation. However, the
        Summary Recommendat ion statement that       . regulat ions issued by the
        Department should requi re that grantees immediately not i fy the Department
        whenever they detect or receive an allegation of scientific misconduct
        appears to be too broad to be practical. The insti tutions are likely to
        object strongly to such a requirement prior to their having any evidence of
        substance to the allegation. Furthermore, a requirement for such early -­
        reporting probably would not be feasible from the point of view of the Federal
        Government, as it would probably lead to Federal involvement prematurely in
        local disputes or personal conflicts.


        We also agree that time frames for reporting and for conducting inquiries and
        investigation       needed. The issue of timing is-ealt with in t       Notice of
        Proposed Rulemaking. It is important to emphasize the need for flexibility in
        timing, because the nature and complexity of investigations sometimes
        necessi tate a longer invest igat ional per iod. Grantees should, however , provide
        regular status reports to the funding agency if an inquiry or an inv stigation
        takes longer than the speci f i ed per iod.
        Certainly, individuals should have easy access to the PHS personnel responsible
        for dealing with misconduct                              issues.
                                             In addition, institutions should report
        immediately any allegations of scientific misconduct that could have
        potentially particularly serious ramifications, such as the health or well
        being of human or animal subjects.

        In any case, we question whether the early reporting requiremen1 as                                      set forth
         in this recommendation is consonant with -                               the legislative history of
           L. 99-158-;

                                                                                   ...-.---


Page 5



DIG Recommenda t ion

The Department should keep complete and uniform records concerning
investigations undertaken by the grantees and PHS in order to maintain baseline
data on the incidence of cases. This information could also be used in
refining guidance and direction to grantees in conducting future
investigations.
PHS Commen t

We concur that complete and uniform records are highly desirable for the

reasons outlined in the DIG' s report and as a basic safeguard for equitable

handling of investigations. In addition to the PHS-wide ALER system for
tracking individuals who are either ineligible to receive PHS funds or for whom

funding de isions are subject to special review, both NIH and
established data bases that are designed both to track
                                                                     AD
                                                                      have
                                                                pen cases and to
archive key information about cases that already have been closed. The

tracking          sy-m for
                    open cases includes time schedules for processIng as well
as the status of individual cases under investigation. The trend in developing
procedures and records has been toward increased standardization and
compl teness of information collected. We welcome CIG' s advice on improvements
in th is        area.

DIG Recommenda t ion

The Department should encourage individuals wi th information about instances of
possible scientific misconduct to come forward. Grantees should be informed of
the CIG Hotline, which receives allegations concerning fraud and abuse in the

Department'           s programs.
PHS Comment


We concur wi th the recommendation to encourage individuals to come forward wi
allegations of misconduct; this already is being done. The funding agency
should be notified regarding possible misuse of funds, and the DIG should be

notified in the case of possible criminal violation. For the last 5 years,

notices of a grant award include information about the CIG Hotline; however

this information does not ecessarily reach all individuals assoc ated with a

research project. We a5ree that more needs to be done to educate researchers
students, and administrators in this regard. We will publish notices
regarding the reporting of misconduct on at least an annual basis in the NIH
Guide for Grants and Contracts, which reaches over 30 000 recipients.

CIG Recommenda t ion

The Department should explore ways to protect the "whistleblower " since
detection of possible scientific misconduct relies so heavily on individuals
willing to make an                    allegation.
                                   Currently Federal employees who engage
 whi st leblowing " are protected by                     law.
                                           Simi lar protect ion should be provided
to individuals reporting possible scientific misconduct by grantees.
--         .. --.




  Page 6



  PHS Commen t

  We concur that improved protection for " whistleblowers ' is essential to the
  integrity of the process. PHS is aware of the need to protect the
    whistleblower. Some protection currently is provided to " whistleblowers, " by
  the acceptance of anonymous allegations. PHS currently is in the process of
  examining additional means    at providing proper protection. This is occurring
  by communication with the research community, including direct discussions with
    whistleblowers. An important aspect of this effort is the need to encourage
  and maintain responsibility in whistleblowing efforts and to discourage the
  use of the misconduct reporting system for the resolution of personal or
  profess i onal di sputes. Appropr ia te protect Lon for the "wh i stleb lower " wi 11
     require legislation. 

  OIG Recommends t ion

   The Department should explore al ternat ive methods of detect ing possible
- -mi sconduct. Examp les of possible methods are spot audi ts of s      i ficlda ta or
     special reviews byu editors of scientific        journals.
     PHS Commen t

     We concur in principle regarding this complex topic. We would support
     exp lorat ion of    reasonable "methods to detect mi sconduct. Indeed, exi st ing
     tr i als of    invest iga t ional drugs and other i ntervent ions al ready have audi t
                    t into thei r design, and
     procedures bui 1                                several instances of mi sconduct have
     been detected in this way. However, we          are skeptical about the utility of
     large- scale    audi ts, given   the di ff icul ty of interpret ing large volumes of
     original data. Recommendations   such as this, which would dramatically affect
     the relationship between the university community and the Federal Government,
     should receive further public coment and discussion. While we do not believe
     such data audi ts are feasible, any serious considerat ion to perform such
     audits should not occur without input from the grantee community.

   In addition, it is not clear what is intended by " special reviews by editors of
   scientific journals.      It is unlikely that editors would be willing to serve as
   agents of the Department. There is, however, considerable evidence that
   journal edit      are aware that greater vigilance is needed. Scientific
   misconduct was the topic of a r ece "\t meeting sponsored by the Editorial Policy
   Commi ttee of the COci 1 of Biology Edi tors, Inc. Whi Ie it would not be
   appropr ia te for the Federa 1 Government to speci fy that journa 1 edi tors conduct
   speci al reviews, the Federal Government should work wi th the edi tors to
 - encourage theJJ rev ewers to become mote vigi lant and involved in reviewing
     manuscripts for discrepancies.
     OIG Recommendat ion ­


     The Department should develop a table of penalties, such as the model adopted
     by the Office of Personnel Management,    assure that sanctions are applied
     consistently and fairly in cases of scientific misconduct.
                                                         - .-.---.-   ---


Page 7



PHS Commen t ------­


We concur with the thrust of this recommendation. The PHS interim policies as

developed and implemented are intended to provide 
                                  lance between consi stency
and the need for flexibility. While we doubt that these considerations can be
reduced to a formula or table, the continued accretion of experience will no
doubt improve the process. At this stage, we have grouped the sanctions into
levels of severity, and furth r experience may permit us to develop an
appropriate model.

OIG Recommenda t ion

The PH should  assume a leadership role and provide guidance to the grantees
matters related to scientific misconduct.

                The PHS should sponsor a consensus conference to develop model

                guidelines for use by grantees in addressing all relevant areas of

                scient i f ic mi sconduct.
                The PHS should continue its efforts in the area of prevention, such as
                the contract with the Institute of Medicine to develop scientific
                standards for the conduct of responsibl science. The       should             PH
                develop model preventive guidelines and require that institutions adopt
                these measures as a condition of funding.

PHS Corren t
We concur. PH has exercised a leadership role in this area and will continue
to do so. It is worth noting that the grantee comunity has welcomed and
sought leadership from PH, as                                 indicated by invitations to present at national
association and professional society meetings, extensive formal and informal
consultation, and inq                         iries about the status of regulations. With regard to
the speci          f ic recommendat              ions:

                We believe that both PH and the private sector have provided ample
                opportunity for public discussion of model guidelines. Clearly, there
                are areas in which consensus has not been achieved, e.g., the timing
                 nd threshQld f reporting allegations of misconduct and the proper
                balance between due process and expdi t ious resolut ion of cases.
                addition, the process-4nitiated with the publication of the Advance
                Notice of Proposed Rulemaking continues the opportunity for full
                discussion of these issues. On the other hand, viewed in historical
                 erspective, th e is an impressive degr e of consensus about
                 institutional responsibilities.

                We support the recomme dation for sponsorship of a conference at the
                appropriate time. This would be particularly helpful to smaller
                institutions, which would appear to welcome additional guidance in this
                 area. Such model guidelines would help to-ensure more consistency
                procedures, policy, and protections.
                                                  ..            ..



Page 8



          The PHS believes that it should have a role in supporting education-­
          regarding ethical issues of science and should continue its efforts in
          this regard, in cooperation with the private sector, in identifying and
          promoting the responsible conduct of research. ' The PHS will continue
          its discussions with outside groups who are experienced in dealing with
          effective educational procedures. It is unlikely, however, that
          preventive guidelines could adequately cover every situation. Nor is
          it clear that the imposition of guidelines is desirable or enforceable.

            It should be noted that the Department permits considerable variations
            in financial accountability procedures, provided the procedures allow
            for sound management and audi t trai Is in grant transactions. Given the
                                                     i ty,
           complex nature of scient i fie accountabi 1     it seems reasonable to
            allow comparable flexibility in that area, provided basic fiduciary
          - ob 1 i ga t ions are met.

          It is important to recognize that discussions already are ongoing under

       --ariety-     of sponsorships (e.g. , American Association f Universities,
          American Association for the Advancement of Science, Institute of
          Medicine) and in response to our own Advance Notice of Proposed
          Rulemaking and Notice of Proposed Rulemaking announcements that were
          published recently. A "framework" document to provide guidelines for
          insti tutions is being developed, which involves input from a large
          number of different agencies. The National COnference of Lawyers and
          Scientists is continuing a dialogue on this proposed framework. All
          these mechanisms provide effective interactions between Federal and

          non-Federal personnel. One goal of this interaction is the development

          of model prevent i ve guidel i nes and appropr iate procedures for deal ing
          wi th mi sconduct.
Technical COmments


Page 1, Purpose


It should be stated in the     report thatat the time of the study grantees were

not yet requ i red by regulat ion to have procedures in place but, nevertheless,

the Office of Inspector General wanted to determine to what extent such

procedures have been dev loped.


Page
Whi Ie we recognize that this report focuses on NIH, many of the requirements

also apply to other agencies of PHS.   We bel ieve it would be more accurate to

add a statement to this  effect at the beginning of the report.


Page 1, The Problem of Scientific Misconduct


 In the last paragraph, the report refers to "     . the increasing number of

 reported scientific misconduct cases during the 1980' s. .    " We have no

 evidence of such an increase. Furthermore, the report should be clarified to

 state that these represent a minuscule fraction of investigators supported by

NIH.
Page 9



Page 2 , Federal Involvement In Scientific Research


Paragraph 2 should be revised to           reflect
                                          (1) that issues of research integrity
and quality control are addressed during the grant approval and management
process, e.g., in clinical trials, plans for quality control and monitoring are
considered during review and post award , and (2) PHS agencies become involved
if allegations are reported directly to the agency and during monitoring of the
status of inquiries and investigations before a finding of misconduct is
confirmed. The statement in this paragraph regarding sanctions or formal
corrective actions should be clarified to state whether this refers only to
actions by the Secretary or also to actions by the agencies.

Page 2 , Paragraph 2 , Third Sentence


The-entence states that     "Grant-applications undergo an              internal scientific
review. . . .    Grant applications undergo an       external reVIew  y peers of tbat
scientist who have been determined not to have a con lict of interest with the

principal investiga            or grantee institution. In addition to an assessment of

the scientific merit and technical qualities of the research proposal, the
reviewers consider the background, training, and track record of the
investigator(s).      In addition to the peer review and subsequent review by the
institute advisory council, the application receives review by NIH grants
management and scientific program personnel to determine whether appropriate
considerat ion has been given wi th respect to human and animal subjects as well
as fiscal considerations and overlap with other research support. NIH
programmatic personnel, who are trained scientists, and grants management
specialists review all noncompeting renewal as well as competing applications.
The programatic personnel apply their                   ow scientific
                                                             background and experience
toward making the best funding decisions with respect to the science. They
also monitor scientific progress, read the scientific literature, attend
scientific meetings when funds permit, and generally are alert to detect
misconduct or other     irregularities.
While it is true that NIH normally gets involved in an allegation of misconduct

only after the completion of the ini tial inquiry or after receipt of

communication from the "whistleblower, " NIH will continue to monitor cases at

an earlier stage when circumstances require it , for example if NIH learns that

a grantee institution is less than ully prepared to deal with an allegatJon of

research mi sconduct.
Page 2, Federal Action on the Problem of Scientific COnduct


The report states that NIH has been perceived as having moved slowly in
handling allegations and in functioning on an ad hoc                basis.
                                                             Yet, both NIB
personnel and the institutions agree that individual cases differ considerably,
and their experience so far has occurred within a relatively limited number of
cases.  Moreover, in order to provide at least the elements of due process,
such as review and rebuttal of findings from all parties to an investigation
the PHS agencies have emphasized accuracy and fairness in handling allegations.
Certainly, it is important to examine what patterns can be learned from
                                              ...


Page 1


individual cases, whar-procedures work best, and what sanctions should be
applied. However,  it is difficult, and probably inappropriate, at thi s stage
to try to constrain a diverse group of cases into a constricted or limited
approach.
Indirect costs are narrowly defined and might or might not be of di rect
assistance in monitoring and investigating cases of alleged research
mi sconduct. .

Page 3 , Paragraph 4


Since NIH does not always conduct its investigations by appointing a panel of

scientific peers, we suggest that the first sentence be changed to read "The

NIH usually conducts its investigations. 


Pages 3 and 4


The following paragraph, which     refers to the Institute of   edicine study. -Ws
omi tted from the final draft.-­

            "Since the passage of this legislation, the Department  has:       issued
            "The Policies and Procedures for Dealing wi th Possible Misconduct in
            Science " (di scussed above); establ i shed the "PHS COmmi ttee on
            Misconduct in Sc ience" to exchange information about investigations and
            discuss relevant policy proposals; been developing the regulations
            called for in the bill; been developing criteria/guidelines on
            appropriate debarment periods for misconduct in science; and contracted
            wi th the Inst i tute of Medicine to identify ways for NIH to encourage
            the scientific comunity to engage in reasonable and responsible
            conduct focusing on preventive measures.

This paragraph describes actions that the Department has implemented since

passage of the Health Research Extension Act. We believe it should be included

in this report to provide an accur te picture of current Federal efforts.


Page 4 , Last Paragraph


There are clear indicat!ons in this report that the si tuation reported by
Penelope J. Greene, et aI, in "Policies f-e Responding to Allegations of Fraud

in Research, " Harvard University, Division of Health Policy Research and

Education, is vastly different today, and there is general agreement that much

has changed.


Page 6, 
    ullet
At the time of the OIG interviews, there were two full-time professionals
assigned to the office which deals with misconduct. This is in addition to the
Di rector of the Off ice of Extramural Research, who serves as the PHS Mi sconduct
Policy Officer. To provide the reader with the current status of NIH staffing
in the misconduct area, we recommend that you indicate the assignment of

additional professLonal staff to the misconduct      area.Since the time of the

OIG interviews, two professionals have      been-aed to the NIH office that

Page 11



handles allegations of misconduct in science, the Institutional Liaison
Office.  This increases the core staff of that office to five full-time
equivalent positions, including the following: Chief , Institutional Liaison
Office; Health Scientist Administrator; Examiner; Program Analyst; and

secretary. The main responsibility of the Chief and the entire responsibility

of the Health Scientist Administrator and of the Examiner are with scientific

misconduct investigations, while the responsibilities of the Program Analyst

and of the secretary are divi ed between misconduct investigations and

publication of the NIH Guide for Grants and COntracts.


Page 8, Paragraph 2


This paragraph should acknowledge that investigations of misconduct are handled
on an individual basis, as the cir umstances of each case vary. However , to
the extent that simi lar   allegat ions or problems   have been deal t wi th, NIH does
use past experience in guiding future actions. PHS guidelines (NIH Guide to
Grants and COntracts, July 1986) provide specific guidance as to what steps
staff are to undertake when allegations. are received.


Page 9 , Absence of Procedures


Since the estimates in the report are based on a sample survey and derived

weighted estimates, this should be made explicit in the       report.
                                                                  Since the
number of grantee institutions contacted is relatively  small, it would be

useful to provide the numbers which correspond to the stated percentages,

thereby giving the reader a better sense of the context of the estimates.

